<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2014

                              ----------                              


                        THURSDAY, APRIL 25, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby presiding.
    Present: Senators Mikulski, Shelby, and Cochran.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF HON. CHARLES F. BOLDEN, JR., ADMINISTRATOR

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. The subcommittee will come to order.
    Senator Mikulski, our chairperson, is running a little 
late. You never know when traffic and other things happen, 
General Bolden, so she asked me to go ahead and get started. 
And with your permission, I will.
    General Bolden, I'm going to give an opening statement, and 
then we'll see where we go from there.
    The National Aeronautics and Space Administration (NASA) is 
one of the most publicly-recognized agencies in the Federal 
Government and an inspiration to young people around the world, 
motivating them to become scientists, engineers, and explorers. 
I look forward to hearing from Administrator Bolden about this 
budget and NASA's plans for the future.
    The fiscal year 2014 budget aspires to do many new, 
innovative, and exciting things, yet it proposes, General 
Bolden, no additional funding. In essence, NASA is proposing to 
do more with less.
    I strongly believe that this country must continue to push 
the science and engineering envelope while maintaining focus on 
current investments in order to realize tangible benefits.
    I'm concerned, General Bolden, that the budget before us is 
an example of chasing the next great idea while sacrificing 
current investments. This country has finite resources to 
invest, and while we're committed to NASA's mission, subjecting 
mission-critical activities to shoestring budgets because a 
more exciting idea has come along I don't think is wise.
    Based on the proposed budget, as well as previous budgets, 
I have serious doubts about NASA's dedication to truly 
developing a heavy launch capability. I hope you will dispel 
that.
    While your testimony, Administrator Bolden, points out that 
NASA is building the world's most powerful rocket, the Space 
Launch System (SLS), the budget doesn't reflect NASA's 
commitment to that goal. Instead, it shows cuts to SLS vehicle 
development as far as we can see.
    This budget focuses, I believe, too heavily on maintaining 
the fiction of privately funded commercial launch vehicles 
which diverts, I think, critical resources from NASA's goal of 
developing human space flight capabilities with the SLS.
    I've long been a supporter of public-private partnerships 
that use Federal dollars to leverage private resources in 
everything. In this case, however, NASA has provided $1.5 
billion to for-profit companies for the development of launch 
capabilities, but it's my understanding it has no idea how much 
money these companies are investing themselves. And according 
to NASA's budget office, it has no authority to ask. That's 
troubling.
    In addition, NASA has no ability to keep the projects on 
budget or on schedule because of the nature of the contract 
that was executed.
    It's also troubling that NASA paid these companies in spite 
of delayed milestones, shifting completion dates, and an 
altered final delivery schedule, and then had to provide 
additional payments in excess of $200 million so these projects 
could be successful. This sounds like a great arrangement for 
the companies, but I don't believe it's a great arrangement for 
the taxpayer.

                           PREPARED STATEMENT

    There are many unanswered questions about NASA's vision for 
the future and how it plans to achieve that vision. With this 
budget proposal, we have a significant challenge ahead of us, 
but I believe that with some direction and some accountability, 
NASA's endeavors can be successful and inspire future 
generations.
    I look forward to working with Chairman Mikulski and with 
you, Mr. Administrator, in the coming months. And I ask that my 
full statement be made part of the record.
    [The statement follows:]
            Prepared Statement of Senator Richard C. Shelby
    Thank you, Madam Chair.
    NASA is one of the most publicly-recognized agencies in the Federal 
Government and an inspiration to young people around the world 
motivating them to become scientists, engineers, and explorers. I look 
forward to hearing from Administrator Bolden about this budget and 
NASA's plans for the future.
    The fiscal year 2014 budget aspires to do many new, innovative, and 
exciting things, yet it proposes no additional funding. In essence, 
NASA is proposing to do more with less. I strongly believe that this 
country must continue to push the science and engineering envelope 
while maintaining focus on current investments in order to reap 
tangible benefits.
    I am concerned that the budget before us however, is an example of 
chasing the next great idea while sacrificing current investments. This 
country has finite resources to invest and while we are committed to 
NASA's mission, subjecting mission critical activities to shoestring 
budgets because a more exciting idea has come along is not wise.
    Based on the proposed budget, as well as previous budgets, I have 
serious doubts about NASA's dedication to truly developing a heavy 
launch capability. While your testimony Administrator Bolden, points 
out that NASA is building the world's most powerful rocket, the Space 
Launch System, the budget does not reflect NASA's commitment to that 
goal. Instead, it shows cuts to SLS vehicle development as far as the 
eye can see.
    This budget focuses too heavily on maintaining the fiction of 
privately funded commercial cargo and crew vehicles which diverts 
critical resources from NASA's goal of developing human space flight 
capabilities with the SLS. Administrator Bolden, I have long been a 
supporter of public-private partnerships that use Federal dollars to 
leverage private resources. In this case however, NASA has provided 
$1.5 billion dollars through Space Act Agreements to for-profit 
companies to develop low Earth orbit launch capabilities but has no 
idea how much money these companies are investing themselves, and 
according to NASA's budget office, has no authority to ask. In 
addition, NASA has no ability to keep the projects on budget or on 
schedule because of the nature of the contract that was executed.
    It is troubling that NASA paid the companies developing cargo 
capability in spite of delayed milestones, shifting completion dates, 
and an altered final delivery schedule and then had to provide 
additional payments in excess of $200 million so these projects could 
be successful. This sounds like a great arrangement for the companies 
but I don't believe it is a great arrangement for the taxpayer.
    There are many unanswered questions about NASA's vision for the 
future and how it plans to achieve that vision. With this budget 
proposal, we have a significant challenge ahead of us but I believe 
that with some direction and greater accountability, NASA's endeavors 
can be successful and inspire future generations.
    I look forward to working with the Chair and you, Mr. Administrator 
in the coming months.

    Senator Shelby. And I need to mention that the subcommittee 
has taken Inspector General Paul Martin's testimony for the 
record already.
    Senator Cochran, do you have an opening statement?

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, I'm pleased to join you in 
welcoming our distinguished witness to the subcommittee today 
to review the budget requests for NASA for fiscal year 2014.
    I ask unanimous consent that my full statement be printed 
in the record.
    Senator Shelby. Without objection, so ordered.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    Madam Chairwoman, I join you in welcoming Administrator Bolden to 
our hearing today on the fiscal year 2014 NASA budget request. I look 
forward to our work to help ensure appropriate levels of funding for 
the NASA activities during this budget year.
    I am pleased that NASA appears to be moving forward with the 
development of the Space Launch System. As you know, Stennis Space 
Center in Mississippi is very important to the people of my State and I 
am hopeful that we can continue to work together to ensure that we have 
adequate rocket testing infrastructure at Stennis to support the Space 
Launch System and our Nation's space exploration goals.

    Senator Shelby. General Bolden, I talked with you a few 
minutes ago, but we officially welcome you to the subcommittee, 
and look forward to your testimony and the question-and-answer 
period, and I'm sure the chairwoman will join us soon.
    Mr. Bolden. Thank you very much.
    Senator Shelby. Proceed as you wish.

            SUMMARY STATEMENT OF HON. CHARLES F. BOLDEN, JR.

    Mr. Bolden. Thank you, Sir. Mr. Chairman and members of the 
subcommittee, first of all, I know Chairman Mikulski is not 
here yet, and I've congratulated both of you in private on your 
ascension to the chairmanship and ranking membership of the 
full committee, and I want to congratulate you again and tell 
you how much I look forward to working with you in all aspects.
    I want to thank this subcommittee for the opportunity to 
appear today to discuss NASA's fiscal year 2014 budget request. 
Let me start, again, by thanking this subcommittee for its 
continued bipartisan support of NASA and the world's second-to-
none civil space program. That support is also reflected among 
the American people and in the White House, as evidenced by the 
President's $17.7 billion funding request for NASA.
    The budget reflects today's fiscal realities and aligns 
NASA's full spectrum of activities to meet the President's 
challenge to send humans to an asteroid in 2025 and to Mars in 
the 2030s. As part of the agency's overall asteroid strategy, 
NASA is planning a first-ever mission to identify, capture, and 
redirect an asteroid into orbit around the Moon. This mission 
represents an unprecedented technological challenge, raising 
the bar for human exploration and discovery, while helping 
protect our home planet and bringing us closer to a human 
mission to Mars in the 2030s.
    This budget also supports NASA's partnerships with American 
industry partners who are developing new ways to reach space. 
These partnerships are creating jobs and enabling NASA to focus 
on new technologies that benefit all of our missions. Industry 
partner SpaceX has begun resupplying the International Space 
Station (ISS) with cargo launched from the United States. This 
past Sunday's successful test launch by Orbital Science of its 
Antares launch vehicle marks another significant milestone in 
NASA's plan to rely on American companies to launch supplies 
and astronauts to the International Space Station. Orbital is 
now poised for its first demonstration launch and mission to 
the ISS later this year.
    The administration is committed to launching American 
astronauts from U.S. soil within the next 4 years. This budget 
provides the necessary resources to achieve that goal. This 
budget fully funds the ISS that remains the springboard to our 
next great leap in exploration. It also continues investments 
that are developing the SLS rocket and Orion crew vehicle that 
will take astronauts to deep space. And it supports driving the 
development of space technologies, such as solar electric 
propulsion, that will power tomorrow's missions and help 
improve life on Earth.
    This budget continues to build on our Nation's record of 
breathtaking scientific discoveries and achievements in space 
with science missions that will reach farther into our solar 
system and provide critical knowledge about our home planet.
    Among other science goals, the budget will sustain NASA's 
vital role in helping us understand Earth's systems and 
climate, and the dynamics between our planet and our sun. These 
efforts will provide critical knowledge about our home planet 
and potential threats. We will continue steady progress toward 
our next great observatory as we develop the James Webb Space 
Telescope (JWST), scheduled to launch in 2018.
    NASA's programs of innovative aeronautics research are 
pursuing an ambitious research agenda for substantially 
reducing aircraft fuel consumption, emissions, and noise. With 
the fiscal year 2014 request, NASA begins a new $25 million-a-
year advanced composites project that will focus on innovative 
composite materials and structures.

                           PREPARED STATEMENT

    Mr. Chairman, we've had to make some tough choices with 
this budget, as I'm certain we'll discuss today. But I'm 
committed to making sure that NASA is using its resources 
strategically for a cohesive exploration program that bolsters 
our economy, improves life here on Earth, and raises the bar of 
what humans can achieve.
    I look forward to your questions.
    [The statements follows:]
           Prepared Statement of Hon. Charles F. Bolden, Jr.
    Madam Chairwoman and members of the subcommittee, I am pleased to 
have this opportunity to discuss NASA's fiscal year 2014 budget 
request. The requested budget of $17.715 billion will support 
continuing progress toward implementing the bipartisan program for NASA 
agreed to by the President and Congress, which will ensure the United 
States continues to lead the world in space exploration, technology, 
innovation, and scientific discovery. A summary of the fiscal year 2014 
budget request is appended to this statement.
    American astronauts are living and working in space on board the 
International Space Station (ISS), conducting an expanding research 
program with an array of partners. By partnering with American 
companies, we are cost-effectively resupplying the space station from 
U.S. soil, and we are on track to end our sole reliance on Russia for 
astronaut transport to and from the Space Station by 2017. NASA is 
developing spaceflight capabilities to send humans to an asteroid by 
2025 and on to Mars in the 2030s. To accomplish these goals, we are 
building the world's most powerful rocket, the Space Launch System 
(SLS), and a deep space exploration crew vehicle, the Orion Multi-
Purpose Crew Vehicle (MPCV). In critical support of the Agency's 
broader mission, we are developing and testing space technologies that 
will enable us to move and operate faster and more efficiently in 
space, land more mass accurately on another planet, and enable new 
destinations to be visited. These technologies include solar electric 
propulsion, learning to store and transfer fuel in orbit, radiation 
protection, laser communications, high-reliability life support 
systems, and human and robotic interfaces. Our aeronautics research is 
making air travel cleaner, safer, and more efficient. With many 
missions actively observing Earth, the planets, the Sun, and the 
Universe, we remain the world's premier space science organization and 
the critical source of information for an understanding of Earth's 
climate that can only be gained from the global perspective of space. 
We are extending these cutting-edge capabilities with major new 
developments, including the James Webb Space Telescope and a new Mars 
rover. Despite an uncertain budget climate, NASA is delivering the 
world's preeminent space program, supporting an innovation economy, and 
broadening our understanding of the universe around us.
    As is briefly described below, NASA's resources are directed to 
accomplish the goals set for the Agency by the Congress and the 
President. Our improved processes for cost estimating and program 
management play a critical role in our ability to manage our resources, 
and we remain on track in our major developments. NASA is confident 
that we can continue to execute the program described below within the 
budget levels anticipated in the President's fiscal year 2014 request 
for NASA. We will attempt to maintain and implement long-term 
development plans within future budgets as they are appropriated. The 
Agency stands committed to executing our programs as efficiently as 
possible.
                   an integrated exploration mission
    The President's fiscal year 2014 budget request continues to 
implement the bipartisan strategy for space exploration approved by 
Congress in 2010, a plan that advances U.S. preeminence in science and 
technology, improves life on Earth, and protects our home planet, all 
while helping create jobs and strengthening the American economy. This 
budget reflects current fiscal realities by aligning and leveraging 
relevant portions of NASA's science, space technology, and human 
exploration capabilities to achieve the President's challenge of 
sending astronauts to an asteroid by 2025.
    As part of the agency's overall asteroid strategy, NASA is planning 
a first-ever mission to identify, capture, and redirect an asteroid 
into orbit around the Moon. The overall mission is composed of three 
separate and independently compelling elements: the detection and 
characterization of candidate near-Earth asteroids; the robotic 
rendezvous, capture, and redirection of a target asteroid to the Earth-
Moon system; and the crewed mission to explore and sample the captured 
asteroid using the Space Launch System (SLS) and the Orion crew 
capsule. This mission represents an unprecedented technological 
challenge--raising the bar for human exploration and discovery, while 
helping protect our home planet and bringing us closer to a human 
mission to Mars in the 2030s.
    Each mission element would heavily leverage ongoing activities 
across the Human Exploration and Operations, Space Technology, and 
Science Mission Directorates. We are currently working to align ongoing 
activities across these directorates to affordably achieve the 
objectives while we plan this mission. Progress will continue 
conditional on feasibility and affordability. Funding provided within 
the President's fiscal year 2014 budget request will augment our 
existing activities in Space Technology, Science, and Human Exploration 
and Operations to: enhance our near-Earth asteroid detection and 
characterization assets; accelerate advanced solar electric propulsion 
development; and design and test capabilities to capture a small, yet 
slowly tumbling asteroid in space.
                                science
    With 60 missions observing Earth, the Sun, the planets, and the 
Universe, NASA remains the world's premier space science organization 
and the critical source of information on the home planet. NASA's 
budget request for the Science Mission Directorate includes $5,017.8 
million with $1,846.1 million for Earth Science, $1,217.5 million for 
Planetary Science, $642.3 million for Astrophysics, $658.2 million for 
the James Webb Telescope, and $653.7 million for Heliophysics.
Earth Science
    Seventeen NASA Earth Science research missions currently in orbit 
study the home planet as an integrated system, including the recently 
launched Landsat Data Continuity Mission (LDCM), which is undergoing 
on-orbit checkout. NASA is also beginning work on land imaging 
capabilities beyond LDCM as well as climate sensors that were 
previously part of the Joint Polar Satellite System (JPSS). NASA 
missions continue to give us a global perspective on how Earth works as 
a system and how our climate is changing over time. Few products of 
NASA's research can be as valuable, in a material sense, as an accurate 
understanding of the future of our planet's environment--on land, in 
the oceans, and throughout the atmosphere. The fiscal year 2014 request 
supports the launch of two new Earth science missions in fiscal year 
2014, and final preparations for launch of two more before the end of 
the calendar year. The Global Precipitation Measurement (GPM) mission, 
a cooperative mission with the Japan Aerospace Exploration Agency 
(JAXA), will provide unprecedented global precipitation observations 
and the Orbiting Carbon Observatory-2 (OCO-2) will provide accurate 
global measurements of atmospheric carbon dioxide levels. In the fall 
of 2014, NASA will launch the Soil Moisture Active Passive (SMAP) 
mission to study the Earth's hydrologic cycle. At the end of the 
calendar year, in a collaboration among NASA's Science Mission 
Directorate, Human Exploration and Operations Mission Directorate, and 
the European Space Agency, NASA will launch and install the 
Stratospheric Aerosol and Gas Experiment III (SAGE III) on the ISS to 
continue critical long-term measurements of the vertical structure of 
aerosols, ozone, water vapor, and other important trace gases in the 
upper atmosphere.
Astrophysics and James Webb Space Telescope
    NASA is on track and making excellent progress on the James Webb 
Space Telescope, the most powerful space telescope in history. The Webb 
telescope is the next in a series of astrophysics missions, including 
the venerable, yet still unrivaled Hubble Space Telescope and the 
incredibly productive Kepler exoplanet mission, which are 
revolutionizing our understanding of the universe. After launching in 
2018, the Webb telescope will travel 1 million miles from Earth, unfold 
its sunshield to the size of a tennis court, and keep its instruments 
cooled to a temperature of 370-387 degrees below zero Fahrenheit (40-50 
kelvins). The Webb telescope will allow us to observe objects even 
fainter than the Hubble Space Telescope can see, which will allow us to 
study every phase in the history of our universe, ranging from the 
first luminous glows after the Big Bang, to the formation of solar 
systems capable of supporting life on planets like Earth, to the 
evolution of our own solar system. The fiscal year 2014 request will 
support work to finish the Webb science instruments, begin their 
testing as an integrated science payload, and commence construction on 
the spacecraft that will carry the science instruments and the 
telescope. NASA's Stratospheric Observatory for Infrared Astronomy 
(SOFIA) airborne observatory is making its second year of science 
observations. Operating at altitudes of between 39,000 to 45,000 feet 
(12-14 kilometers) and above 99 percent of the water vapor in the 
atmosphere, SOFIA makes observations that are unobtainable from 
telescopes on the ground. In the coming year, SOFIA will begin its next 
set of science observations. Flying out of Palmdale, California, and 
Christchurch, New Zealand, SOFIA will observe star-forming regions in 
our galaxy from its vantage point at the top of the Earth's atmosphere.
Planetary Science
    Building on the brilliant success of NASA's new Curiosity rover on 
Mars, the 2014 request supports plans for a robust multiyear Mars 
program, including a new robotic science rover based on the Curiosity 
design set to launch in 2020. The current portfolio includes the 
Curiosity and Opportunity rovers, the Mars Recognizance Orbiter, the 
Mars Odyssey orbiter, and our collaboration with the European Space 
Agency Mars Express orbiter. Future missions include the 2013 Mars 
Atmosphere and Volatile EvolutioN (MAVEN) orbiter to study the Martian 
upper atmosphere; the 2016 Interior Exploration using Seismic 
Investigations, Geodesy and Heat Transport (InSight) mission (which 
will take the first look into the deep interior of Mars); participation 
in the European Space Agency's 2016 and 2018 ExoMars missions; and the 
new Mars rover planned for launch in 2020.
    Last summer, NASA's Dawn mission completed more than a year in 
orbit around the asteroid Vesta, and departed for its 2015 rendezvous 
with Ceres, the largest known asteroid. NASA is developing a robotic 
asteroid rendezvous and sample return mission, dubbed OSIRIS-REx (for 
Origins-Spectral Interpretation-Resource Identification-Security-
Regolith Explorer), which is planned to launch in 2016. After traveling 
3 years, OSIRIS-REx will approach the Near Earth Asteroid 1999 RQ36, 
map the asteroid, and collect a sample of up to 2.2 pounds for return 
to Earth. This mission will provide valuable data and experience in 
support of NASA's planned human exploration of a Near Earth Asteroid. 
In addition, the fiscal year 2014 budget request includes enhanced 
funding for NASA's Near Earth Object survey and characterization 
activities in support of human exploration and to protect our planet.
Heliophysics
    Perhaps even more dynamic than the Earth's climate are the 
processes taking place within the Earth's nearby star, the Sun. NASA's 
Heliophysics Program operates nearly 20 spacecraft to expand our 
understanding of the Sun, its complex interaction with Earth, other 
planetary systems, the vast space within the solar system, and the 
interface with interstellar space. Last year saw the successful launch 
of the Van Allen Probes, which, in a few short months, have already 
redefined our understanding of the Earth's radiation belts. The fiscal 
year 2014 request will support final development and launch of the 
Interface Region Imaging Spectrograph (IRIS), as well as continued 
development of the Magnetospheric Multiscale (MMS) mission, which is 
planned for launch in 2015 to investigate how the Sun's and Earth's 
magnetic fields connect and disconnect. NASA continues to formulate the 
Solar Probe Plus (SPP) mission and develop its contribution to the 
European Space Agency's Solar Orbiter mission.
                          aeronautics research
    NASA's fiscal year 2014 request includes $565.7 million for NASA's 
program of innovative aeronautics research. This research supports the 
Nation's aviation industry's efforts to maintain competitiveness in the 
global market, and helps to provide the flying public with an improved 
flying experience and fewer delays, while also maintaining an 
outstanding safety level. NASA's breakthrough research into more 
efficient air traffic management and environmentally friendly aircraft 
helps U.S. air carriers to operate their fleets more efficiently while 
reducing operating costs. Today, we are pursuing an ambitious research 
agenda for substantially reducing fuel consumption, emissions and noise 
to make the Next Generation Air Transportation System (NextGen) a 
reality. NASA begins a new $25 million a year Advanced Composites 
Project in fiscal year 2014 that will focus on reducing the timeline 
for development and certification of innovative composite materials and 
structures. Looking ahead, NASA is paving the way for further industry 
innovation through demonstration in flight of new aircraft wing 
technology designed to save fuel by reducing weight and drag, and 
continued flight research of low-boom technology designed to reduce 
sonic booms enough to eliminate the barrier to overland civil 
supersonic flight. By advancing the state of the art in vehicle and air 
traffic management technology, NASA is directly contributing to the 
Nation's bottom line.
                            space technology
    NASA's fiscal year 2014 request includes $742.6 million for Space 
Technology. Space Technology enables our future in space by drawing on 
talent from the NASA workforce, academia, small businesses, and the 
broader national space enterprise to deliver innovative solutions that 
dramatically lower costs and improve technological capabilities for 
NASA and the Nation. In 2012, we successfully fabricated a 2.4 meter 
composite cryogenic propellant tank. We will scale this design up and 
test a 5.5-meter diameter tank to enable lower-mass rocket propellant 
tanks that will meet future SLS needs. The Small Businesses Innovation 
Research and Small Business Technology Transfer (SBIR and STTR) 
programs saw six previously funded technologies make their way to Mars 
last August with the landing of Curiosity and provide the critical 
detector in the infrared instrument on the LDCM spacecraft. In 2013, we 
will fly a cluster of eight small satellites that will make coordinated 
space science observations. We will conduct high-altitude tests of the 
largest planetary parachute ever developed and drag devices designed to 
enable precise landing of higher-mass payloads to the surface of 
planets, with particular focus on infusing advanced capabilities into 
the Mars 2020 mission. In addition, NASA will launch the Sunjammer 
Solar Sail, which will demonstrate solar sail propulsion as an enabler 
for advanced space weather warning systems. Space Technology is also 
systematically addressing technology barriers in preparation for a 
future solar electric propulsion demonstration to an asteroid. By the 
end of fiscal year 2014, NASA will test and deliver two candidates for 
large deployable solar array systems, power processing units, and 
advanced thrusters to support this flight demonstration. The Game 
Changing Program is delivering advanced life-support, robotics, and 
battery technologies for the system demonstrations planned by the 
Advanced Exploration Systems Division of NASA's Human Exploration and 
Operations Mission Directorate.
    To meet the challenges that we face in implementing our exploration 
plans, we are engaging the Nation's brightest and best. Over the past 2 
years, Space Technology has engaged over 100 U.S. universities and 
academic institutions with approximately 350 activities, including 
fellowships, direct competitive awards, incentive prizes, and through 
partnerships with NASA Centers, small businesses, and commercial 
contractors. The fiscal year 2014 request will support our plans to 
continue releasing a steady stream of new solicitations, tapping into 
the Nation's talent to ensure the availability of advanced technologies 
for NASA's missions and ultimately, through technology transfer, for 
American businesses. Following the National Research Council's review 
of NASA's Space Technology Roadmaps, the Agency released and is 
implementing the Strategic Space Technology Investment Plan, which 
guides technology priorities across the agency's space-technology 
portfolio across its mission directorates. NASA's community of 
innovators is applying, testing, and reworking cutting-edge research 
into potentially ``game-changing'' solutions that can accelerate a 
timeline, slash projected costs, or multiply science return. NASA makes 
progress in essential space technologies daily, enabling more capable 
and far-reaching space systems for our Nation's future, and we are 
doing so through lean, agile programs and innovative approaches.
                    exploration and space operations
    NASA is building the capabilities and knowledge to send humans 
farther from the home planet than we have ever been before. The fiscal 
year 2014 budget request for Exploration is $3,915.5 million with 
$2,730 million for Exploration Systems Development, $821.4 million for 
Commercial Space Flight, and $364.2 million for Exploration Research 
and Development. Space Operations, including the International Space 
Station and Space Flight Support form a critical component or the 
agency's exploration plans by enabling us to develop the knowledge, 
experience, and technology necessary for safely living and working in 
space. The fiscal year 2014 request for Space Operations is $3,882.9 
million.
Exploration Systems
    The fiscal year 2014 request will enable NASA to continue to meet 
its milestones in the development of the Space Launch System (SLS), a 
rocket system ultimately capable of bringing an unprecedented 130 
metric tons of payload to Earth orbit. The Orion Multi-Purpose Crew 
Vehicle (MPCV) program continues on schedule for an uncrewed test 
flight in 2014. This test flight, Exploration Flight Test-1 (EFT-1), 
will see Orion conduct two orbits of Earth and reenter the atmosphere 
at a high-speed characteristic of a returning deep space exploration 
mission. The test will provide valuable data about the spacecraft's 
systems, most importantly, its heat shield. The flight test article for 
this mission is already in place at the Kennedy Space Center and being 
readied for this test. The fiscal year 2014 request supports progress 
toward a first uncrewed test of the Orion and the SLS together, known 
as Exploration Mission-1 (EM-1) in 2017, with the first crewed mission 
of the two vehicles slated for 2021. These two missions will test and 
demonstrate these systems. Together, the SLS and Orion MPCV represent a 
critical step on the path to human deep space exploration. Because our 
commercial space partners continue to make rapid and cost-effective 
progress toward meeting the Agency's requirements for access to the ISS 
and to low Earth orbit, NASA is able to focus its human exploration 
resources to develop the deep space capabilities represented by the SLS 
and Orion MPCV.
International Space Station
    The fiscal year 2014 request supports the International Space 
Station (ISS) with its international crew of 6 orbiting Earth every 90 
minutes. The Station is making deep space exploration possible, 
building on the knowledge and experience we are gaining from the 
astronauts living, working, and conducting research on the ISS. Our 
plans for the coming year include preparing for an extended duration, 
year-long human-crewed mission to explore human adaptation to space; 
continuing to utilize the ISS to improve our ability to live and work 
in space, including technology demonstrations enabling future 
exploration; and the addition of three Earth Science instruments that 
will exploit ISS' capabilities to study winds over the oceans and the 
movement of dust, smoke, and pollution through the atmosphere. The 
Center for the Advancement of Science in Space (CASIS) is now managing 
the National Laboratory research being conducted in the U.S. segment of 
the ISS by an array of organizations, including commercial researchers 
interested in taking advantage of this unique, microgravity facility.
Commercial Crew and Cargo
    A top priority for NASA and the Nation is to affordably and safely 
launch American astronauts and their supplies from U.S. soil, ending 
our reliance on foreign providers and bringing that work back home. 
Under NASA's Commercial Resupply Services (CRS) contracts, Space 
Exploration Technologies (SpaceX) was awarded 12 cargo flights to the 
space station, and Orbital Sciences Corporation (Orbital) was awarded 
8. SpaceX executed its first cargo mission to the ISS in October 2012, 
successfully delivering its cargo and returning scientific samples to 
Earth. SpaceX successfully completed its second CRS mission and its 
Dragon spacecraft safely returned to Earth on March 26. Orbital 
successfully completed the maiden flight of its Antares rocket on April 
21 and will conduct a demonstration flight of the Antares with the 
Cygnus spacecraft this spring under the Commercial Orbital 
Transportation Services (COTS) effort. Orbital's first contracted cargo 
resupply mission under CRS is slated for later this year. NASA 
continues to work with its commercial partners to develop a U.S. 
commercial capability for human spaceflight. NASA intends to procure 
commercial crew services to ISS by 2017, and full funding of the fiscal 
year 2014 request is essential to restore a human spaceflight 
capability to the United States in this timeframe. Through the 
successful execution of this partnership, we will return to the United 
States the vital capability to launch astronauts to the ISS and return 
them to Earth.
                               education
    NASA supports the President's goal to utilize existing resources to 
achieve improvements in science, technology, engineering, and 
mathematics, or STEM, education and instruction. The administration is 
proposing a comprehensive reorganization of STEM education investments. 
The 2014 budget will enhance the impact of the Federal investment by 
reorganizing STEM education programs across agencies and redirecting 
funding in support of a cohesive national STEM strategy focused on four 
priority areas: K-12 instruction; undergraduate education; graduate 
fellowships; and informal education activities. Within NASA, STEM 
education investments previously distributed across the Agency will be 
consolidated and focused within the Office of Education, the National 
Science Foundation, and the Smithsonian Institution. During fiscal year 
2013 and fiscal year 2014, NASA's education teams will develop 
transition plans that minimize impacts to students and organizations 
currently served by NASA. The Agency will also conduct studies to 
determine which NASA education assets should and can be made available 
to the new STEM consolidation partners.
    The fiscal year 2014 request of $94.2 million includes education 
activities in the Office of Education and NASA's mission directorates. 
The funding request for the Education account includes funding for the 
National Space Grant College and Fellowship Program, the Experimental 
Program to Stimulate Competitive Research (EPSCoR), and the Minority 
University Research and Education Program (MUREP). These education 
investments link to NASA's research, engineering, and technology 
missions. Each of these investments provides unique NASA experiences 
and resources to students and faculty. Starting in fiscal year 2014, 
mission-based K-12 education, and engagement activities, traditionally 
funded within programmatic accounts, will be incorporated into the 
administration's new STEM education paradigm.
                          cross agency support
    NASA's Cross Agency Support (CAS) account funds all of the 
operations and maintenance of NASA's nine Centers, component 
facilities, and Headquarters, including, the Agency's safety offices, 
independent technical authority, NASA's engineering safety center, 
procurement, and others that oversee activities to reduce the risk and 
loss of life and/or mission in all of NASA's human, satellite, 
aeronautic, and robotic programs. NASA's fiscal year 2014 request of 
$2.85 billion supports critical efforts to modernize NASA's information 
technology security processes and expanding security operations efforts 
to provide early warning of cyber vulnerabilities. The request will 
support the Agency's continuing efforts to reduce its facilities costs 
by consolidating capabilities and disposing of unneeded assets.
                               conclusion
    NASA thrives on the synergy created by a critical mass of brilliant 
scientific and engineering talent, supported by a broad range of expert 
professionals. We work, as an Agency, to send humans to an asteroid and 
on to orbit Mars. We work, as an Agency, to understand the universe 
from the beginning of time to the future of Earth's climate. The people 
working to put the next rover on Mars are refining the systems 
necessary to put humans there in the future. The people testing 
advanced ring-sail parachutes for landing payloads on planetary 
surfaces are also learning how flight through an atmosphere at super-
high speeds works. The astronauts running physical science experiments 
on the ISS are themselves life science experiment subjects, and at the 
same time, they are demonstrating the science and technology for living 
and working in space. The Agency is on track and making steady progress 
executing the space and aeronautical program defined for us by Congress 
and the President in the 2010 authorization act, and we are confident 
we can accomplish these programs under that direction. NASA's 
confidence that we can execute the program described here is based 
primarily on the demonstrated expertise, flexibility, and dedication of 
our people. The reason why NASA ranks as the best place to work in the 
Federal Government may simply be this: we all are contributors to a 
mission greater than ourselves, extending beyond the current 
generation. We tackle national and global challenges. We are explorers.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
Prepared Statement of Hon. Paul K. Martin, Inspector General, Office of 
                           Inspector General
    Chairwoman Mikulski, Ranking Member Shelby, and members of the 
subcommittee: The Office of Inspector General (OIG) is committed to 
providing independent, aggressive, and objective oversight of the 
National Aeronautics and Space Administration (NASA), and we welcome 
this opportunity to discuss the major challenges facing the Agency in 
fiscal year 2014 and beyond.
    The successful landing of the Curiosity rover on the surface of 
Mars in August 2012 energized the public about NASA's activities in a 
way not seen since the final Space Shuttle flight. Similarly, two 
successful commercial resupply missions to the International Space 
Station (ISS) by Space Exploration Technologies Corporation (SpaceX) 
and a successful rocket test flight Sunday by Orbital Sciences 
Corporation are milestones toward NASA's goal of fostering development 
of a commercial space transportation capability to low Earth orbit.
    The past year was not without its challenges, however, including 
the need to reprogram funds from several Agency initiatives to 
accommodate cost overruns in the James Webb Space Telescope (JWST) and 
other projects. This shift contributed to developmental delays in 
several ongoing projects and cancellation of others, including a joint 
project with the European Space Agency for planned missions to Mars in 
2016 and 2018.
    Moreover, because NASA's commercial crew program received less than 
one-half its requested budget, the Agency's efforts to obtain 
commercial transportation for its astronauts to the ISS have been 
bumped to 2017 at the earliest--uncomfortably close to the Station's 
currently scheduled 2020 retirement. At the same time, NASA is moving 
forward with development of a new rocket, capsule, and related launch 
infrastructure to enable crewed missions to an asteroid and beyond, 
expensive and technically complex undertakings in an increasingly 
austere budget environment.
    In sum, static budgets and other fiscal uncertainties present the 
most significant external challenges to NASA's ability to successfully 
move forward on its many projects and programs. For example, the 
Agency's fiscal year 2012 appropriation of $17.8 billion recently was 
reduced by $894 million in fiscal year 2013 to reflect its share of the 
Federal Government-wide sequestration.
    Against this rather bleak budgetary backdrop, Agency managers 
continue to face significant challenges managing NASA's diverse 
portfolio of science, exploration, and aeronautics projects. 
Specifically, our most recent report on the top management and 
performance challenges facing NASA identified five primary issues:
  --The Future of U.S. Human Space Flight;
  --Project Management;
  --Infrastructure and Facilities Management;
  --Acquisition and Contract Management; and
  --Information Technology Security and Governance.
    A detailed description of these challenges and the audit and 
investigative work conducted by our office in each of these areas is 
described in the Top Challenges document appended to this statement.
    In my testimony this morning, I will highlight three issues: (1) 
project management, (2) information technology (IT) security, and (3) 
NASA s aging infrastructure.
                           project management
    Over its 50-year history NASA has been at the forefront of science 
and space exploration that has led to numerous scientific and 
technological discoveries and innovations. However, in addition to 
their significant achievements, many NASA projects share another less 
positive trait--they cost significantly more to complete and take much 
longer to launch than originally planned.
    Last September, the OIG issued a report that examined NASA's 
project management practices and the primary challenges to achieving 
the Agency's cost, schedule, and performance goals. Cost and schedule 
increases on large projects like the JWST can have a cascading effect 
on NASA s entire portfolio. For example, in fiscal year 2012, NASA 
moved $156 million from other Science Mission Directorate projects and 
its Cross Agency Support account to cover cost increases in the JWST 
project. In addition, the Wide-Field Infrared Survey Telescope and 
several other missions have been postponed to make funding available 
for JWST. Moreover, as previously noted, NASA has pulled out of an 
agreement with the European Space Agency on two future Mars missions 
and is re-evaluating its Mars exploration strategy to accommodate a 
more restricted funding profile.
    Our project management review identified four factors that present 
the greatest challenges to successful project outcomes at NASA: (1) the 
Agency's culture of optimism, (2) underestimating technical complexity, 
(3) funding instability, and (4) limited opportunities for project 
managers' development. The September audit report and the 2012 
Management Challenges document discuss each of these factors in detail.
    One of NASA's largest ongoing projects is its new ``heavy-lift'' 
rocket known as the Space Launch System (SLS). The NASA Authorization 
Act of 2010 set a goal for the Agency to achieve operational capability 
for the SLS and the accompanying Multi-Purpose Crew Vehicle (MPCV) by 
December 31, 2016. NASA's current plan is to launch an uncrewed test 
flight of the SLS and MPCV in 2017, followed by the first crewed flight 
in 2021.
    Establishing realistic long-term budgets for the SLS, MPCV, and 
associated ground support programs is difficult, as illustrated by an 
August 2011 independent cost assessment for the program, which 
concluded that NASA s estimates are reasonable for near-term budget 
planning but do not support establishment of long-term budgets or 
detailed baselines. Constrained budgets also impact the pace of NASA's 
development efforts. For example, because the MPCV program is 
anticipating a ``flat'' budget profile for at least the next 10 years, 
NASA has adopted an incremental developmental approach that 
concentrates on systems needed to meet specific mission objectives for 
each test flight rather than an approach under which work on all MPCV 
systems progresses concurrently. The OIG is currently examining NASA's 
efforts to develop the MPCV and will continue to focus resources on 
NASA's launch and crew transportation development efforts in the years 
to come.
                    information technology security
    At a February 2012 House hearing, I testified about the state of IT 
security at NASA and highlighted the fact that at the time only 1 
percent of NASA's laptop computers were fully encrypted compared to a 
Government-wide rate of 54 percent. Eight months later, a NASA laptop 
containing the Social Security numbers and other personally 
identifiable information (PII) for more than 40,000 individuals was 
stolen from the vehicle of a headquarters employee. Although the laptop 
was password protected, neither the laptop itself nor the individual 
files were encrypted. As a result of this theft, NASA contracted with a 
company to provide credit monitoring to the affected individuals and 
the Agency estimates that these services could cost up to $900,000.
    Following this incident, the NASA Administrator accelerated the 
timetable to encrypt the hard drives of the Agency's laptop computers. 
As of mid-April, NASA reported that it had encrypted 100 percent of 
Agency laptops identified as requiring encryption, had exempted 4,247 
laptops from the requirement, and was determining whether another 346 
laptops required encryption or also would be exempted.
    NASA's portfolio of information technology assets includes more 
than 550 information systems that control spacecraft, collect and 
process scientific data, and enable NASA personnel to collaborate with 
colleagues around the world. Hundreds of thousands of NASA personnel, 
contractors, academics, and members of the public use these IT systems 
daily and NASA depends on them to carry out its essential operations. 
Overall, NASA spends more than $1.5 billion annually on its IT-related 
activities, $58 million of that for IT security.
    Nonetheless, NASA remains a target of cyber intruders both because 
of the large size of its networks and because of the technical and 
scientific information it maintains. Over the years, NASA has 
increasingly become a target of a sophisticated form of cyber attack 
known as advanced persistent threats (APTs). The individuals or nations 
behind these APTs are typically well organized and well-funded.
    For example, our investigation of a series of APT attacks at the 
Jet Propulsion Laboratory (JPL) involving Chinese-based Internet 
protocol addresses between November 2011 and February 2012 confirmed 
that cyber attackers were successful in achieving control over much of 
JPL's network for several weeks and used this access to steal or 
attempt to steal NASA-funded data. While data theft appears to be the 
primary motive, the level of access gained by the intruders positioned 
them to have caused significant operational disruption had that been 
their goal.
    Through our audits and investigations, we have identified systemic 
and recurring weaknesses in NASA's IT security program that adversely 
affect the Agency's ability to protect the information and information 
systems vital to its mission. In particular, the Chief Information 
Officer's (CIO) inability to ensure that NASA's mission computer 
networks implement key IT security controls continues to put these 
critical IT assets at risk of compromise. To illustrate, the Agency has 
not yet implemented two recommendations from a May 2010 OIG audit 
report to monitor its mission networks for the presence of critical 
software patches and technical vulnerabilities.
    Achieving the Agency's IT security goals will require sustained 
improvements in NASA's overarching IT management practices. Effective 
IT governance is the key to accommodating the myriad interests of 
internal and external stakeholders and making decisions that balance 
compliance, cost, risk, and mission success. Effective IT governance 
also helps ensure that public funds are efficiently spent by 
coordinating across NASA when purchasing IT products and services.
    We are completing a review examining NASA's IT governance structure 
and anticipate making several recommendations for improvement. This 
audit is particularly timely given that the NASA CIO position is 
currently vacant.
                      nasa's aging infrastructure
    NASA is the ninth largest Federal Government property holder, 
controlling approximately 4,900 buildings and structures with an 
estimated replacement value of more than $30 billion. In addition, more 
than 80 percent of the Agency's facilities are 40 or more years old and 
beyond their design life. Under its current policy, NASA is required to 
maintain these facilities either in an operational status or, if they 
are not being used, in sufficient condition that they do not pose a 
safety hazard. However, NASA has not been able to fully fund required 
maintenance costs for its facilities and in 2012 estimated its deferred 
maintenance costs at $2.3 billion.
    One way NASA could reduce its facilities maintenance costs is to 
reduce the amount of unneeded infrastructure in its inventory. To be 
successful in this effort, NASA must move beyond its historic ``keep it 
in case we need it'' approach of managing its facilities. In an audit 
issued last month, the OIG identified 33 wind tunnels, test stands, 
thermal vacuum chambers, airfields, and launch-related facilities that 
NASA was not fully utilizing or for which Agency managers could not 
identify a future mission use. These facilities cost the Agency more 
than $43 million to maintain in fiscal year 2011 alone.
    We found that NASA's efforts to reduce its underutilized facilities 
have been hindered by several longstanding and interrelated challenges: 
(1) fluctuating and uncertain strategic requirements, (2) Agency 
culture and business practices, (3) political pressure, and (4) 
inadequate funding. To its credit, NASA is undertaking a series of 
initiatives aimed at ``rightsizing'' the Agency's real property 
footprint. However, we noted that many of these efforts are in the 
early stages and may ultimately be insufficient to overcome the 
cultural and political obstacles that have impeded past efforts to 
reduce unneeded infrastructure. Accordingly, an independent outside 
process similar to the Department of Defense's Base Realignment and 
Closure Commission may be necessary.
    Leasing offers NASA another means to help address maintenance costs 
associated with its aging and underutilized facilities. However, 
Federal law and policy prohibit NASA from leasing facilities for which 
it has no current or future mission-related use. The Agency should 
consider other options for these facilities such as demolition or 
reporting the property to the General Services Administration for sale 
or transfer to another entity. The challenge for NASA is to use leasing 
when appropriate to generate revenue to offset facilities operations 
and maintenance costs while not using it as a way to hold on to 
facilities it does not need.
                               conclusion
    The National Research Council (NRC) concluded in its December 2012 
report that there is a ``significant mismatch between the programs to 
which NASA is committed and the budgets that have been provided or 
anticipated.'' In other words, too many programs are chasing too few 
dollars. I am hopeful that the NRC's report, together with the ongoing 
work of the OIG and Government Accountability Office, will contribute 
to a dialogue between the administration and the Congress about NASA's 
future priorities and lead to enactment of a realistic budget that will 
enable the Agency to accomplish its multifaceted missions.
    We look forward to continuing our cooperative working relationship 
with NASA, this subcommittee, and other congressional committees as we 
conduct audits and investigations that focus on the Agency's top 
management and performance challenges.
                                 ______
                                 
    NASA's Top Management and Performance Challenges--November 2012
Introduction
    Fiscal year 2012 ended on a high note for NASA with the successful 
landing of the rover Curiosity on the surface of Mars in August. Over 
the next several years, Curiosity will explore the Red Planet in an 
effort to determine if it has ever been able to support life. Earlier 
in the year, NASA achieved a major milestone toward its goal of 
fostering the development of a commercial space transportation 
capability to low Earth orbit with the successful test flight of the 
Space Exploration Technologies Corporation's (SpaceX) Dragon spacecraft 
to the International Space Station (ISS), followed in October by the 
first actual commercial resupply mission.
    The year was not without challenges, however. For example, due to 
cost overruns in the James Webb Space Telescope and other projects, 
NASA had to reprogram funds away from several Agency initiatives. This 
resulted in developmental delays in some ongoing projects and 
cancellation of other planned projects, including the ExoMars/Trace Gas 
Orbiter missions to Mars.\1\
---------------------------------------------------------------------------
    \1\ This joint project between the European Space Agency and NASA 
consisted of missions scheduled for launch in 2016 and 2018.
---------------------------------------------------------------------------
    Moreover, the congressional decision to provide NASA's Commercial 
Crew Program (CCP) with less than half the funding requested by the 
President in fiscal year 2012 extended to 2017 the earliest date that 
NASA expects to obtain commercial crew transportation services to the 
ISS, which is significant if NASA is unable to maintain and utilize the 
Station beyond its currently scheduled retirement date of 2020. In 
addition, as a result of the lower-than-expected funding level, the 
Agency delayed its planned transition from using Space Act Agreements 
to using Federal Acquisition Regulation (FAR)-based contracts for 
developing these systems. This decision heightened concern in some 
quarters about the ultimate ability of the commercial companies to meet 
NASA safety requirements.
    Finally, declining budgets and fiscal uncertainties remained at the 
forefront of the Agency's decisionmaking processes this past year. Like 
the rest of the Federal Government, NASA began fiscal year 2013 under a 
6-month continuing resolution that funds the Agency at fiscal year 2012 
levels. Overshadowing the effects of the continuing resolution, 
however, is the possibility of an early January 2013 sequestration that 
would reduce NASA's anticipated budget by approximately $1.5 billion. 
Even if this looming cut is averted, NASA is likely to face constrained 
budgets for the foreseeable future.
    Against this rather bleak budgetary backdrop, we have identified 
five overarching issues we believe pose the top management and 
performance challenges to NASA leadership: Future of U.S. Human Space 
Flight, Project Management, Infrastructure and Facilities Management, 
Acquisition and Contract Management, and Information Technology 
Security and Governance.
    In deciding whether to identify an issue as a top challenge, we 
considered the significance of the issue in relation to the Agency's 
mission; its susceptibility to fraud, waste, and abuse; whether the 
underlying causes are systemic in nature; and the Agency s progress in 
addressing the challenge. Several of these challenges--specifically 
project management, infrastructure and facilities management, and 
acquisition and contract management--are long-standing concerns likely 
to remain top challenges for the foreseeable future. However, with 
focused and sustained efforts we believe that NASA can make significant 
strides in addressing all of the challenges we have identified.
Future of U.S. Human Space Flight
    NASA's Space Shuttle era which began with the maiden voyage of 
Columbia  on April 12, 1981, ended after 135 missions when Atlantis  
landed at Kennedy Space Center on July 21, 2011. In the ensuing year, 
NASA delivered the four retired orbiters to their permanent homes for 
public display. NASA's current spaceflight activities are focused on 
maximizing the productivity of the ISS, encouraging development of 
commercial companies seeking to provide cargo and crew transportation 
to the ISS, and developing new systems and technologies for exploration 
beyond low Earth orbit. Moving each of these programs forward in a 
``flat'' or diminishing budget environment will be a significant 
challenge for the Agency.
    International Space Station.--The ISS is currently scheduled to be 
retired in 2020, although NASA is conducting studies to see if the $60 
billion facility can safely be inhabited and productively utilized 
until 2028. Whatever its remaining life span, a major focus for the 
Agency is ensuring the most effective use of the ISS.
    One of the most significant factors affecting utilization of the 
ISS is the amount of time the crew can commit to research. Although 
NASA has increased average crew research time from 23.9 hours per week 
in 2010 to 35 hours per week in 2012, the Agency is unlikely to be able 
to raise that figure given current constraints on crew size.\2\ The ISS 
was designed to support a seven-member crew. However, because at 
present the only means of transportation to and from the ISS is the 
Russian Soyuz, which has a three-person capacity, only six crew members 
can safely be aboard at one time to allow for evacuation in case of an 
emergency. This limitation on crew size will exist until at least 2017, 
the earliest date at which NASA's commercial partners are expected to 
be ready to fly manned, higher-capacity missions to the ISS.
---------------------------------------------------------------------------
    \2\ NASA, ``Consolidated Operations and Utilization Plan (COUP) 
2010, Covering the period 2010-2015'' (April 26, 2011). Dan Hartman, 
Manager, Operations Integration, ISS Program Office, ``International 
Space Station Program Status,'' July 23, 2012, NASA Advisory Committee, 
Human Exploration and Operations Subcommittee, http://www.nasa.gov/pdf/
672214main_1-Hartman_July12_NAC_Final_508.pdf (accessed October 8, 
2012).
---------------------------------------------------------------------------
    The other limitation to full utilization is the ability to 
transport materials and supplies to and from the ISS. SpaceX's Dragon 
flew a successful demonstration mission to the ISS in May 2012 and 
began actual resupply missions in October 2012. NASA's other commercial 
cargo partner, Orbital Sciences Corporation (Orbital), is slated to 
perform the first demonstration flight of its Antares rocket in 
December 2012, with a demonstration flight to the ISS with the Cygnus 
capsule in spring 2013. Although both systems are capable of delivering 
cargo to the ISS, only Dragon is capable of returning cargo and 
research experiments to Earth. In fact, other than the very limited 
capability of Soyuz, Dragon is the only system since the retirement of 
the Space Shuttles with any ``downmass'' capability.
    In August 2011, NASA entered into a cooperative agreement with the 
Center for the Advancement of Science in Space (CASIS) initially worth 
$15 million per year to manage the non-NASA science activities on the 
national laboratory portion of the ISS. CASIS, a nonprofit 
organization, is responsible for ensuring that the laboratory is 
available to the broadest possible cross section of U.S. scientific, 
technological, and industrial communities. Part of its job is to select 
the experiments that will be conducted on the national laboratory.
    CASIS issued its first public solicitation in June 2012 with the 
goal of enabling research in the areas of protein crystallization and 
the life sciences. However, during its first year of operation CASIS 
encountered a variety of start-up challenges, including the resignation 
of its executive director, and as of October 2012, did not have a 
permanent Board of Directors. In the months and years ahead, NASA must 
ensure that CASIS forms an effective management team; develops a varied 
research and development portfolio based on national needs for basic 
and applied research; establishes a marketplace to help match research 
with funding; and stimulates interest in using the national laboratory 
for research and technology demonstrations and as a platform for 
science, technology, engineering, and mathematics education.
    NASA also needs to continue encouraging use of the ISS by other 
U.S. Government agencies, other nations, and the commercial sector 
while seeking partnerships and cost-sharing arrangements to supplement 
Agency funding of ISS research and operations. The Office of Inspector 
General (OIG) expects to issue a report examining NASA's efforts to 
ensure full utilization of the ISS early next year.
    Commercial Launch Providers.--Beginning in 2006, NASA entered into 
a series of Space Act Agreements designed to stimulate development by 
U.S. industry of transportation systems capable of providing safe and 
reliable cargo and crew services to the ISS and low Earth orbit. NASA 
initiated two activities to manage its investments in this area: the 
Commercial Orbital Transportation Services (COTS) Program and the 
Commercial Crew Program (CCP). Both programs use Space Act Agreements 
to support the development of commercial transportation capabilities 
and FAR-based contracts to certify the capabilities and to procure crew 
and cargo services to and from the ISS. The availability of domestic 
crew and cargo capability will enable the United States to transport 
its own astronauts to the ISS rather than relying on Russian vehicles 
and provide needed redundancy in cargo and crew transportation systems 
to the ISS.
    NASA has invested $750 million over the past 7 years in its effort 
to encourage development of cargo transportation by private companies. 
Two companies, SpaceX and Orbital, are under contract to resupply the 
ISS through 2016. As noted above, SpaceX flew its first successful 
demonstration flight in May 2012, during which its Dragon spacecraft 
berthed with the ISS, and its first resupply mission occurred in 
October 2012. The first demonstration flight of Orbital's Antares 
rocket and Cygnus space freighter to the ISS is currently scheduled for 
late spring 2013, with the company's first resupply mission coming as 
early as 3 months later.
    With respect to the development of commercial crew transportation 
services, in June 2011 we reported on a series of challenges NASA faces 
in certifying and acquiring those services from commercial entities: 
(1) modifying the Agency's existing safety and human-rating 
requirements for commercially developed systems; (2) managing its 
acquisition strategy for commercial crew transportation services; (3) 
implementing the appropriate insight/oversight model for commercial 
partner vehicle development; (4) relying on an emerging industry and 
uncertain market conditions to achieve cost savings; and (5) managing 
the relationship between commercial partners, the Federal Aviation 
Administration, and NASA.\3\
---------------------------------------------------------------------------
    \3\ NASA OIG, ``NASA's Challenges Certifying and Acquiring 
Commercial Crew Transportation Services'' (IG-11-22, June 20, 2011).
---------------------------------------------------------------------------
    Although challenges remain, NASA has made progress in addressing 
several of these issues over the past year. For example, in November 
2011 NASA updated and published detailed berthing and docking 
requirements for cargo and crew delivery systems, and in December 2011 
the Agency finalized more than 280 specific safety and human-rating 
requirements for its CCP. With these requirements in hand, the Agency's 
commercial partners will have greater insight into what will be 
required of their systems to attain NASA certification. The documents 
also provide the Agency's methodology for insight and oversight into 
whether contractors are meeting the program's requirements. 
Specifically, NASA embedded teams of NASA employees known as ``Partner 
Integration Teams'' with the commercial partners to acquire insight 
into their development efforts while a separate review board will 
provide more formal guidance, feedback, and an assessment of the 
partners' activities.
    In August 2012, NASA awarded a third round of Space Act Agreements 
totaling $1.11 billion to three companies to further the development of 
their commercial crew systems.\4\ These Commercial Crew Integrated 
Capability (CCiCap) awards were made to Boeing Corporation ($460 
million); SpaceX ($440 million); and Sierra Nevada Corporation ($212.5 
million).\5\ These awards deviated from the acquisition strategy the 
Agency announced in September 2011, whereby NASA planned to enter into 
firm-fixed-price contracts with one or more companies that would result 
in a complete end-to-end design compliant with NASA Crew Transportation 
System requirements. The award was to be followed by a separate 
solicitation for competitively awarded contracts to develop, test, 
evaluate, and certify a company's vehicles. However, when Congress 
appropriated substantially less than the Agency requested for its CCP 
in fiscal year 2012 ($406 million versus $850 million), NASA changed 
course and decided to award a third round of Space Act Agreements 
rather than move to a FAR-based fixed-price contract.
---------------------------------------------------------------------------
    \4\ The first two rounds of Agreements consisted of $50 million in 
Commercial Crew Development 1 (CCDev 1) awards to five commercial 
partners and $300 million in CCDev 2 awards to four partners.
    \5\ Nasa.gov, ``NASA's Commercial Crew Program Progressing for 
Future of U.S. Human Spaceflight,'' Commercial Space Transportation, 
August 8, 2012, http://www.nasa.gov/
exploration/commercial/crew/ccicap-announcement.html (accessed October 
8, 2012).
---------------------------------------------------------------------------
    Both the Congress and NASA's Aerospace Safety Advisory Panel (ASAP) 
have voiced concerns about the Agency's continued reliance on Space Act 
Agreements in connection with its commercial crew efforts.\6\ At a 
September 2012 congressional hearing, the ASAP Chairman noted that 
unlike with traditional FAR-based contracts, when using Space Act 
Agreements NASA cannot dictate specific requirements to the commercial 
companies, thereby heightening the risk that the companies will 
ultimately not be able to deliver vehicles that satisfy NASA safety and 
performance requirements. NASA, however, believes it can ensure that 
commercial passenger vehicles will meet its requirements by utilizing a 
two-phase process. In Phase 1, currently scheduled for February 2013, 
NASA plans to award two to four fixed-price contracts worth up to $10 
million for design acceptance and certification plans for the 
contractors' crew transportation systems. In Phase II, scheduled for 
May 2014, NASA plans to award one or two fixed-price contracts for the 
development, test, evaluation, and certification of the contractors' 
crew transportation system. This strategy anticipates at least one 
operational crew transportation system would be certified by NASA for 
crew transportation missions to the ISS by 2017.
---------------------------------------------------------------------------
    \6\ September 14, 2012, hearing before the Committee on Science, 
Space, and Technology Subcommittee on Space and Aeronautics, U.S. House 
of Representatives.
---------------------------------------------------------------------------
    Further complicating NASA's commercial crew effort is the 
uncertainty surrounding the Federal budget in light of the 6-month 
continuing resolution that essentially holds the Agency to a $406 
million funding level for its CCP At the September 2012 House hearing, 
NASA's Associate Administrator for Human Exploration and Operations 
told the Congress that if the CCP is not funded at approximately $830 
million per year for fiscal years 2014-2017, the Program will face 
significant schedule delays that will push the first commercial crew 
launch beyond 2017.
    At the same time NASA is fostering the development of commercial 
cargo and crew capabilities, it has been directed to develop its own 
launch system and crew vehicle to carry astronauts beyond Earth's 
orbit. Developing all of these capabilities simultaneously continues to 
present significant management challenges for NASA leaders.
    NASA Launch System and Crew Vehicle.--The new heavy-lift rocket 
under development--the Space Launch System (SLS)--will have an initial 
capacity of 70 metric tons and eventually be capable of lifting 130 
metric tons. As such, the rocket will be capable of more than double 
the lift capacity of any operational launch vehicle that exists today 
and America's most powerful since the Saturn V rockets that carried 
Apollo astronauts to the Moon.
    The Multi-Purpose Crew Vehicle (MPCV), which is being developed 
using an existing contract and is based on design requirements for the 
canceled Constellation Program's Orion Crew Exploration Vehicle, will 
be mounted atop the SLS. The MPCV will serve as the crew vehicle for 
missions beyond low Earth orbit.
    The NASA Authorization Act of 2010 set a goal for NASA to achieve 
operational capability for the SLS and MPCV by December 31, 2016. In 
November 2011, NASA reported that the Reference Design Vehicles for the 
SLS and MPCV would be unable to meet all requirements and schedule 
goals contained in the authorization act. Instead, NASA expects to 
launch an uncrewed test flight of SLS and MPCV in 2017 and the first 
crewed flight in 2021. NASA also reported that it plans to conduct a 
crewed launch once every 2 years thereafter.\7\ In the decades that 
follow, NASA plans to undertake crewed and robotic missions to 
destinations beyond low Earth orbit, such as a near-Earth asteroid, the 
Moon, or Mars. However, no final decisions have been made concerning 
specific missions and destinations.
---------------------------------------------------------------------------
    \7\ NASA, ``Final Report Regarding NASA's Space Launch System and 
Multi-Purpose Crew Vehicle Pursuant to Section 309 of the NASA 
Authorization Act of 2010 (Public Law 111-267)'' (November 2011).
---------------------------------------------------------------------------
    NASA's management challenge in this area will be to concurrently 
develop a launch system and crew vehicle and modify the necessary 
supporting ground systems while meeting the NASA Administrator's 
mandate that exploration systems be affordable, sustainable, and 
realistic. In particular, establishing realistic long-term budgets for 
the SLS, MPCV, and associated ground support programs will be 
difficult, as evidenced by an August 2011 independent cost assessment 
that concluded NASA's estimates are reasonable for near-term budget 
planning but do not support establishment of long-term budgets or 
detailed baselines.\8\
---------------------------------------------------------------------------
    \8\ Booz Allen Hamilton, ``Independent Cost Assessment of the Space 
Launch System, Multi-Purpose Crew Vehicle and 21st Century Ground 
Systems Programs, Final Report,'' August 19, 2011, http://wwwnasa.gov/
pdf/581582main_BAH_Executive_Summary.pdf (accessed November 5, 2012).
---------------------------------------------------------------------------
    Part of the challenge NASA faces in developing long-term budgets is 
the relative immaturity of the SLS Program. For example, in September 
2012 we reported that although the Agency's planned modification to 
adapt the Ares I Mobile Launcher for use on the SLS was technically 
feasible and the most cost-effective option for the initial versions of 
the new rocket, NASA will need to continually assess the modifications 
as the program evolves and the SLS vehicles become larger and more 
powerful.\9\ We found NASA's ability to identify the technical risks 
and accurately estimate future operating costs of modifying the Mobile 
Launcher throughout the SLS Program life cycle is significantly 
affected by both the relative immaturity of the SLS Program and the 
evolvable nature of the SLS vehicles.
---------------------------------------------------------------------------
    \9\ NASA OIG, ``NASA's Plans to Modify the Ares I Mobile Launcher 
in Support of the Space Launch System'' (IG-12-022, September 25, 
2012).
---------------------------------------------------------------------------
    NASA's development efforts have also been impacted by the 
expectation of continued constrained budgets for the foreseeable 
future. For example, the MPCV Program is anticipating a ``flat'' budget 
profile for at least the next 10 years with no increases for inflation. 
As a result, NASA has adopted an incremental approach in developing the 
MPCV under which Program officials will concentrate initially on 
systems needed to meet the specific mission objectives for each test 
flight rather than working on all MPCV systems concurrently. The OIG is 
currently examining NASA's efforts to develop the MPCV and will 
continue to examine NASA's launch and crew transportation development 
efforts in the years to come.
Project Management
    Over its 50 year history, NASA has been at the forefront of science 
and space exploration and responsible for numerous scientific and 
technological discoveries and innovations. However, in addition to 
their significant scientific and technological achievements, many NASA 
projects share another less positive trait--they cost significantly 
more to complete and take much longer to launch than originally 
planned. In this era of constrained Federal budgets, NASA's ability to 
deliver projects on time and within budget is more important than ever 
if the Agency is to maintain a robust portfolio of science and space 
projects.
    Over the past year, the OIG conducted an extensive review examining 
NASA's project management practices in an effort to identify the 
primary challenges to the Agency achieving its cost, schedule, and 
performance goals.\10\ The core of our fact-finding consisted of 
interviews of 85 individuals from both inside and outside of the 
Agency, including the current and former Administrators, Associate 
Administrators, Center Directors, and project managers and staff.
---------------------------------------------------------------------------
    \10\ NASA OIG, ``NASA's Challenges to Meeting Cost, Schedule, and 
Performance Goals'' (IG-12-021, September 27, 2012).
---------------------------------------------------------------------------
    Key Challenges to Meeting Cost, Schedule, and Performance Goals.--
Cost increases and schedule delays on its projects are a long-standing 
issue for NASA. A 2004 Congressional Budget Office study that compared 
the initial and revised budgets of 72 Agency projects between 1977 and 
2000 reported a 61 percent increase between the projects' initial and 
revised budgets.\11\ Similarly, the Government Accountability Office 
(GAO) has consistently reported on cost growth and schedule delays in 
NASA's major projects. For example, in its 2012 assessment of 21 large-
scale projects, GAO reported an average development cost growth of 47 
percent or $315 million, much of which was attributable to the James 
Webb Space Telescope (JWST). The current ``poster child'' for NASA's 
persistent difficulties in controlling cost and schedule growth, JWST 
has gone from an original life-cycle cost baseline estimate of $5 
billion and a launch date of June 2014 to a projected cost of $8.8 
billion and a launch date of October 2018.\12\
---------------------------------------------------------------------------
    \11\ A Congressional Budget Office Study, ``A Budgetary Analysis of 
NASA's New Vision for Space Exploration,'' September 2004.
    \12\ GAO ``NASA: Assessments of Selected Large-Scale Projects'' 
(GAO-12-207SP, March 1, 2012).
---------------------------------------------------------------------------
    As GAO noted, cost and schedule increases on large projects like 
JWST can have a cascading effect on NASA's entire portfolio. To 
illustrate, in fiscal year 2012 NASA moved $156 million from other 
Science Mission Directorate projects and the Cross Agency Support 
account to cover cost increases in the JWST Project.\13\ In addition, 
several other missions including the Wide-Field Infrared Survey 
Telescope have been postponed to make funding available for JWST.\14\ 
Moreover, NASA announced in February 2012 that it was pulling out of an 
agreement with the European Space Agency on two future Mars missions 
and planned to reevaluate its Mars exploration strategy to accommodate 
a more restricted funding profile.
---------------------------------------------------------------------------
    \13\ NASA's Cross-Agency Support account funds support activities 
necessary to ensure the operation and administration of the Agency such 
as human capital management, security, and maintenance of real property 
assets that cannot be directly aligned to a specific program or project 
requirement.
    \14\ The Wide-Field Infrared Survey Telescope is a NASA observatory 
designed to settle essential questions in both exoplanet and dark 
energy research.
---------------------------------------------------------------------------
    In our September 2012 report, we identified four factors that 
appear to present the greatest challenges to successful project 
outcomes at NASA:
    NASA's Culture of Optimism.--Permeating all levels of NASA from 
senior management to frontline engineers, a culture of optimism is 
essential to overcoming the extraordinary technical challenges inherent 
in the development of unique, first-of-their-kind space systems. 
However, this same optimism can sometimes prevent managers and leaders 
from making critical assessments of requirements, budgets, and 
schedules to determine what a project can realistically accomplish 
within a set budget and timetable.
    Underestimating Technical Complexity.--Project managers we 
interviewed cited the technical complexity inherent in NASA projects as 
a major challenge to achieving cost and schedule goals. In our 
judgment, five factors explain the inherently uncertain nature of 
estimating costs for the type of space technologies NASA develops: (1) 
unique, first-of-their-kind technologies; (2) interdependent 
technologies and complex integration issues; (3) increased testing 
needs; (4) limited quantities; and (5) shrinking industrial base and 
reduced quality of parts.
    Funding Instability.--Funding instability includes situations in 
which a project receives less money than planned or where funds are 
disbursed on a schedule different than planned. Such instability may 
result from presidential, congressional, or Agency-directed actions and 
can cause work to be delayed and development risks to be identified 
late in the project life cycle, which in turn can lead to cost 
increases and schedule delays.
    Limited Opportunities for Project Managers' Development.--
Interviewees stated that the limited number of small and mid-size 
projects in NASA's current portfolio allows too few opportunities for 
Agency personnel to gain experience managing a project's cost, 
schedule, and technical performance efforts. In addition, they 
expressed concern that an increased reliance on contractors to design 
and build projects has led to a decline in Agency personnel with 
development experience. Finally, they stated that NASA engineers are 
primarily operating as overseers of work performed by contractors 
rather than gaining experience with in-house builds of instruments and 
spacecraft.
    Given the anticipated funding challenges for all Federal agencies 
in the years ahead, changes to the way NASA develops and manages its 
projects are imperative. At the same time, the Agency is undergoing 
considerable changes in mission focus, with the end of the Space 
Shuttle Program and the first steps on a new path toward human space 
exploration. Collectively, these factors both necessitate and provide 
an opportunity for the Agency to reset itself and take steps toward 
meaningful change in the way its projects are developed and managed.
    Project Management Principles and Tools.--To execute projects 
within established cost and schedule estimates, NASA needs to maximize 
the use of sound project management principles and tools in projects 
both large and small. To its credit, NASA has taken several steps in 
the last few years aimed at curbing cost growth and schedule delays. 
For example, in response to a 2007 GAO report highlighting NASA's lack 
of emphasis on cost controls and program outcomes, the Agency issued a 
Corrective Action Plan that established a definition of success that 
includes completing all development projects within 110 percent of cost 
and schedule baselines and meeting Level 1 requirements for 90 percent 
of the major development projects in its portfolio.\15\ NASA hopes to 
achieve the Corrective Action Plan's criteria for success by fiscal 
year 2013, implementing the policies and processes on new projects 
while tracking and reporting the measures for existing projects.\16\
---------------------------------------------------------------------------
    \15\ ``NASA Plan for Improvement in the GAO High-Risk Area of 
Contract Management,'' dated October 31, 2007, and updated through 
January 31, 2008. A Level 1 requirement is a project's fundamental and 
basic set of requirements levied by the Program or Headquarters.
    \16\ NASA's current set of major development projects were all 
underway prior to implementation of the Corrective Action Plan. These 
projects will gradually be completed (NASA's typical timeline for 
development is 4 years) and replaced with projects that will be fully 
subject to the Plan.
---------------------------------------------------------------------------
    The Agency also has implemented a cost and schedule analysis 
methodology that produces what is known as the Joint Cost and Schedule 
Confidence Level to assist managers with cost and schedule estimating 
while enabling the Agency to evaluate more accurately whether projects 
have an executable plan as they proceed into implementation. NASA 
believes that this analysis has helped projects such as the Gravity 
Recovery and Interior Laboratory, Juno, and the Mars Atmosphere and 
Volatile Evolution meet cost and schedule goals.\17\
---------------------------------------------------------------------------
    \17\ The Gravity Recovery and Interior Laboratory mission launched 
on September 10, 2011, to study the Moon's interior. Juno launched on 
August 5, 2011, to investigate the origin and evolution of Jupiter and 
is scheduled to arrive at the planet in July 2016. The Mars Atmosphere 
and Volatile Evolution mission is scheduled to launch in late 2013 to 
investigate the Martian atmosphere.
---------------------------------------------------------------------------
    Moreover, NASA's new program and project management policy requires 
that project plans document decisions to either build or procure items 
based on NASA's in-house capabilities, maintenance of core 
competencies, cost, and best overall value to NASA. Project plans must 
also include baseline and threshold values for the performance metrics 
to be achieved at each Key Decision Point and mission success criteria 
associated with the program-level requirements that, if not met, 
trigger consideration of a Termination Review.\18\ Furthermore, project 
plans are required to document how the project will periodically report 
cost and schedule performance and provide a mitigation and corrective 
action plan in the event the project exceeds development cost 
estimates. More recently, NASA appears to be holding project managers 
more accountable for meeting cost cap agreements as evidenced by its 
decision in May 2012 to terminate the Gravity and Extreme Magnetism 
Small Explorer mission because development costs were likely to exceed 
the agreed-upon budget.
---------------------------------------------------------------------------
    \18\ NASA Procedural Requirements (NPR) 7120.5E, ``NASA Space 
Flight Program and Project Management Requirements,'' August 14, 2012.
---------------------------------------------------------------------------
    Apart from those positive actions, NASA was not fully utilizing at 
least one important tool in its arsenal--its Lessons Learned 
Information System (LLIS). Since 1994, LLIS has been NASA's principal 
mechanism for collecting and sharing lessons learned from Agency 
programs and projects.\19\ The information in LLIS is drawn from 
individuals, directorates, programs, projects, and supporting 
organizations and personnel across NASA and is one component of NASA's 
larger knowledge management and sharing system. Sharing lessons learned 
can reduce risk, improve efficiency, promote validated processes, and 
improve performance in ongoing and future NASA projects. In a March 
2012 OIG report, we documented that NASA's project managers did not 
routinely use LLIS to search for lessons identified by other projects 
or routinely contribute new information to LLIS. Specifically, we found 
inconsistent policy direction and implementation for the Agency's 
overall lessons learned program; disparate levels of funding for LLIS 
activities across NASA Centers; deficient monitoring of critical 
Center-based LLIS activities; and lack of definition in NASA's overall 
strategy for knowledge management, lessons learned, and LLIS. 
Consequently, LLIS had been underutilized by project managers and 
marginalized in favor of other NASA knowledge sharing system 
components.
---------------------------------------------------------------------------
    \19\ LLIS is an online, automated database. The public can access 
LLIS at http://llis.nasa.gov/llis/search/home.jsp (accessed October 8, 
2012).
---------------------------------------------------------------------------
Infrastructure and Facilities Management
    NASA is the ninth largest Federal Government property holder, 
controlling a network of approximately 4,900 buildings and structures 
that support Agency research, development, and flight activities. In 
total, the assets occupy 46 million square feet and their current 
replacement value is estimated at more than $30.8 billion. The 2010 
authorization act requires NASA to develop a strategy for the most 
efficient retention, sizing, and distribution of facilities and other 
infrastructure consistent with the Agency's mission. In a time of 
constrained Federal budgets and transition from the Space Shuttle era, 
successfully implementing this directive is among the most pressing 
challenges facing Agency management.
    Maintenance, Repair, and Use of Aging Facilities.--NASA officials 
report that more than 80 percent of the Agency's facilities are 40 or 
more years old and beyond their design life. Under its current policy, 
NASA is required to maintain these facilities either in an operational 
status or, if they are not being used, in sufficient condition that 
they do not pose a safety hazard. However, NASA has not been able to 
fully fund required maintenance costs for these facilities and in 2011 
estimated its deferred maintenance costs at $2.47 billion.\20\
---------------------------------------------------------------------------
    \20\ NASA, ``Deferred Maintenance Assessment Report: FY11 NASA-Wide 
Standardized Deferred Maintenance Parametric Estimate (Full 
Assessment),'' October 1, 2011.
---------------------------------------------------------------------------
    NASA has struggled for years with managing its backlog of deferred 
maintenance projects. The Aerospace Safety Advisory Panel cited the 
condition of NASA's facilities and infrastructure as an area of concern 
in its 2011 annual report, and in 2010 the National Research Council 
cited a ``steady and significant decrease in NASA's laboratory 
capabilities, including equipment, maintenance, and facility upgrades'' 
that require more maintenance than funding permits.
    The challenge for NASA leadership in this area is to address the 
backlog of essential maintenance projects so that facilities will be 
available when needed to support future missions. Continuing to delay 
essential maintenance projects poses a threat to the safety of 
personnel and equipment and likely will result in higher repair costs 
in the future.
    Reducing Unneeded and Duplicative Infrastructure.--One way NASA 
could reduce its facilities maintenance costs is to reduce the amount 
of underutilized and duplicative infrastructure in its inventory. In 
the 1990s, GAO issued several reports on NASA's infrastructure 
challenges and noted that the Agency was building new facilities faster 
than it was consolidating or closing older ones, resulting in 
duplication of capabilities. More recently, GAO reported that over 10 
percent of NASA's real property assets were either underutilized or not 
being used at all.\21\ In 2008, NASA's own Program Analysis and 
Evaluation Office identified 203 facilities that had no future mission 
requirement yet were still listed in the NASA inventory.
---------------------------------------------------------------------------
    \21\ GAO, ``Federal Real Property: Progress Made Toward Addressing 
Problems, but Underlying Obstacles Continue to Hamper Reform'' (GAO-07-
349, April 13, 2007).
---------------------------------------------------------------------------
    Finally, an August 2011 OIG audit found numerous NASA facilities 
that had not been utilized, some for as long as 10 years.\22\
---------------------------------------------------------------------------
    \22\ NASA OIG, ``NASA Infrastructure and Facilities: Assessment of 
Data Used to Manage Real Property Assets'' (IG-11-024, August 4, 2011).
---------------------------------------------------------------------------
    The challenge for NASA leadership in this area is to reduce 
unneeded and duplicative property in light of the key missions, 
technologies, and programs the Agency intends to pursue over the next 
20 to 30 years and the facilities it will need for those pursuits. In 
this effort, NASA must move beyond its traditionally conservative 
approach of ``keep it in case we need it'' in managing its facilities. 
Fundamental to the success of any such effort will be improving the 
quality of the Agency's data regarding its real property assets. To 
this point, our August 2011 OIG report found that the data in NASA's 
primary system for compiling and analyzing its real property assets 
were unreliable metrics for evaluating utilization, mission dependency, 
and condition of the Agency's real property assets largely because NASA 
Centers used inadequate processes to gather and update this 
information.
    To its credit, NASA has begun to take positive steps toward 
addressing its infrastructure challenges. For example, in 2011 NASA 
developed its first integrated, Agency-wide real property master plan, 
which it intends to use to coordinate resources across the Agency by 
linking real property needs with projected funding. However, in 
December 2011 we reported that the Center master plans the Agency was 
using to develop this integrated plan contained deficiencies that may 
limit the plan's usefulness in making strategic real property 
decisions.\23\ Developing an integrated Agency master plan in an 
uncertain budget environment is a significant challenge for NASA. 
Nonetheless, as noted in our report, better Center master plans will 
help NASA develop a more comprehensive Agency master plan, which in 
turn will enable the Agency to make better strategic decisions 
regarding its real property assets.
---------------------------------------------------------------------------
    \23\ NASA OIG, ``NASA's Infrastructure and Facilities: An 
Assessment of the Agency's Real Property Master Planning'' (IG-12-008, 
December 19, 2011).
---------------------------------------------------------------------------
    In addition to its Agency-wide master planning effort, NASA is 
taking further action to better identify and assess the Agency's 
strategic capabilities and the real property assets that will be needed 
to support those capabilities.\24\ For example, the Agency has 
strengthened central authority over infrastructure decisions and 
initiated efforts to improve data management and better assess 
technical capability needs across the Agency to assist in the Agency's 
efforts to reduce its real property, the OIG is conducting an audit 
examining NASA's efforts to identify and reduce unneeded and 
duplicative test stands, wind tunnels, vacuum chambers, airfields, and 
Space Shuttle-related infrastructure.
---------------------------------------------------------------------------
    \24\ NASA defines a capability as the necessary infrastructure, 
equipment, workforce and other direct costs required to accomplish a 
given mission requirement.
---------------------------------------------------------------------------
    Leased Space at NASA Centers.--Leasing offers the Agency another 
means to help address the maintenance costs of its aging and 
underutilized facilities. However, Federal law and policy prohibits 
NASA (and other Government agencies) from leasing facilities for which 
it has no current or future mission-related use. For these facilities, 
NASA should consider other options, such as demolition or transferring 
the property to the General Services Administration for sale or 
transfer to another entity. The challenge for NASA is to use leasing 
when appropriate to generate revenue to offset facilities operations 
and maintenance costs while not using it as a way to hold on to 
facilities the Agency does not need. Leasing property under the latter 
scenario frustrates the Agency's efforts to reduce its real property 
footprint and can divert effort and resources from its core missions.
    An August 2012 OIG review found that NASA lacks clear guidance to 
ensure that property identified for leasing was not excess to the 
Agency's needs.\25\ We also determined that NASA lacked a complete 
inventory of space available for lease as well as an effective 
marketing program to attract potential tenants. In addition, we found 
internal control weaknesses that limit NASA's ability to ensure that 
leases provide the best value to the Agency and are fair to its 
partners and potential partners. Absent better controls and improved 
guidance, NASA will be hard-pressed to maximize the potential of its 
leasing program to help reduce the cost of maintaining underutilized 
facilities while meeting its obligation to ensure that leasing does not 
become a substitute for disposing of excess property.
---------------------------------------------------------------------------
    \25\ NASA OIG, ``NASA's Infrastructure and Facilities: An 
Assessment of the Agency's Real Property Leasing Practices'' (IG-12-
020, August 9, 2012).
---------------------------------------------------------------------------
    One tool available to NASA is Enhanced-Use Leasing (EUL), which 
allows the Agency to retain the proceeds it derives from leasing 
underutilized real property rather than turning them over to the U.S. 
Treasury. In fiscal year 2003, Congress granted EUL authority to Ames 
Research Center and Kennedy Space Center. Using this authority, Kennedy 
entered into an EUL with a Florida utility for a 60-acre site that 
supports a solar farm that generates 1 percent of the Center's power 
needs. Under subsequent legislation, all Centers may enter into EULs in 
which they receive either cash payments or in-kind consideration 
related to the development of renewable energy production facilities.
Acquisition and Contract Management
    Approximately 81 percent of NASA's $18.5 billion fiscal year 2011 
budget was spent on contracts to procure goods and services and provide 
funding to grant and award recipients. As the President and Congress 
work to reduce Federal spending and the country's budget deficit, NASA 
is likely to face constrained funding levels for the foreseeable 
future. Accordingly, it is critical that NASA work to ensure that the 
billions of dollars of taxpayer funds entrusted to it are spent wisely. 
However, systemic weaknesses in NASA's internal controls related to 
acquisition and contracting continue to create challenges for the 
Agency. The OIG will continue to focus resources on this issue to 
identify fraud, waste, and abuse by contractors and awardees as well as 
weaknesses in the Agency's system of internal controls.
    Contract Management.--Given the large amount of taxpayer funds NASA 
spends on contract awards, managers are constantly challenged to ensure 
that the Agency pays contractors in accordance with contract terms and 
receives fair value for its money. During the past year, the OIG 
continued to uncover fraud and overcharging by NASA contractors. 
Specifically, as a result of our investigative work in the past year:
  --A Government contractor and its parent company agreed to pay $3.3 
        million to settle allegations that they included unallowable 
        costs in calculating overhead rates for NASA and national 
        defense-related contracts.
  --Another Government contractor agreed to pay $617,789 to settle 
        allegations that it submitted inflated invoices for engineering 
        and technical services it provided to Dryden Flight Research 
        Center.
  --A Texas business owner pleaded guilty and was sentenced to 3 years' 
        probation for making a false statement concerning space vehicle 
        parts his business supplied to NASA for use on the ISS. The 
        investigation found that the business owner had certified that 
        ratchets his company produced met contract specifications when 
        he knew they did not
    The OIG's audit work during the past year also identified 
weaknesses in NASA contract management. For example, we examined 
whether research funded by NASA Research Announcements (NRAs) advanced 
the Agency's aeronautics research goals and whether award costs were 
allowable and properly supported.\26\ Although we found that these NRA 
awards advanced the Agency's aeronautics research goals, we also found 
that 18 of the 43 awards we reviewed (42 percent) contained 
approximately $2.4 million in questioned costs: $22,114 in unallowable 
fees, and $2,405,635 in unsupported costs.\27\ Based on our sample 
results, we estimated that the NRA awards made by the Aeronautics 
Research Mission Directorate from May 2006 through January 2011 
contained $25.2 million in unallowable or unsupported costs.
---------------------------------------------------------------------------
    \26\ NRAs are solicitations that announce research opportunities 
and provide a formal mechanism for corporations, universities, and 
research institutions to submit project ideas. From 2006 to 2010, NASA 
spent approximately $1.3 billion on NRA awards, of which approximately 
$435 million was spent by the Aeronautics Research Mission Directorate.
    \27\ NASA OIG, ``NASA's Use of Research Announcement Awards for 
Aeronautics Research'' (IG-12-011, April 30, 2012).
---------------------------------------------------------------------------
    In another audit, we reviewed NASA's compliance with the Duncan 
Hunter National Defense Authorization Act of 2009 and found contract 
files lacking documentation related to acquisition plans and rationales 
supporting the type of contracts selected.\28\ We also identified 
several instances where the contracting officer's technical 
representative was not timely assigned and cases where NASA had not 
validated the adequacy of the contractor's accounting system--both 
critical to management and oversight of contractor performance. 
Recently, we initiated an audit of NASA's Strategic Sourcing Program to 
determine whether the Program has been effectively implemented and 
whether it has resulted in cost savings for NASA.
---------------------------------------------------------------------------
    \28\ The act requires OIGs to report on their agencies use of cost-
reimbursement contracts and level of compliance with applicable FAR 
rules related to the appropriate documentation for the award, use, and 
management of those contracts. See NASA OIG, ``Final Memorandum on 
NASA's Compliance with Provisions of the Duncan Hunter National Defense 
Authorization Act of 2009--Management of Cost-Reimbursement Contracts'' 
(IG-12-014, March 14, 2012).
---------------------------------------------------------------------------
    One area in which NASA continues to be particularly challenged with 
regard to safeguarding against fraud is its Small Business Innovation 
Research (SBIR) program. NASA awarded approximately $190 million to 
small businesses under this program during fiscal year 2011 to 
stimulate technological innovation, increase participation by small 
businesses in federally funded research and development, and increase 
private sector commercialization of innovations derived from federally 
funded research and development efforts. In multiple investigations and 
audits over the years, the OIG has identified significant fraud, waste, 
and abuse in NASA's SBIR program. For example, this past year an OIG 
investigation resulted in the suspension of a technology firm and two 
of its principals from participation in Federal procurements for 
failing to disclose that the principals were primarily employed by a 
university when they submitted proposals to participate in the NASA and 
Navy SBIR programs.
    Moving forward, the OIG will continue to closely monitor the 
Agency's SBIR activities and work collaboratively with the Agency to 
improve performance in this area.
    Grant Management.--NASA faces the ongoing challenge of ensuring 
that the approximately $500 million in grants it awards annually are 
administered appropriately and that recipients are accomplishing stated 
goals. The Agency makes these awards to facilitate research and 
development projects; to fund scholarships, fellowships, or stipends to 
students and teachers; and to fund educational research performed by 
educational institutions or other nonprofit organizations.
    Over the past 5 years, the OIG conducted 40 grant fraud 
investigations resulting in three prosecutions and $12.5 million in 
restitution and recoveries. As a result of one recent investigation, 
the Department of Justice filed a civil complaint under the False 
Claims Act alleging that a NASA grant recipient improperly spent more 
than $3.75 million in grant funds intended for research purposes on 
construction of a building.
    In September 2011, the OIG reported that NASA did not have an 
adequate system of controls in place to ensure proper administration 
and management of its grant program and that as a result some grant 
funds were not being used for their intended purposes.\29\ Following 
this report, we conducted three audits examining whether specific NASA 
grants are being used for their intended purpose and whether associated 
costs are allowable, reasonable, and in accordance with applicable 
laws, regulations, guidelines, and terms of the grants.\30\ Although we 
did not find any evidence of fraud or abuse in these audits, we did 
identify a number of internal control deficiencies and improvements 
needed in NASA's grant oversight and management. For example, we 
determined that the Philadelphia College Opportunity Resources for 
Education, a not-for-profit organization that provides college 
scholarships to high school seniors, had charged $60,511 in unallocable 
or unallowable expenditures and failed to maintain appropriate time and 
attendance documentation to support personnel charges totaling 
$156,409.
---------------------------------------------------------------------------
    \29\ NASA OIG, ``NASA's Grant Administration and Management'' (IG-
11-026, September 12, 2011).
    \30\ NASA OIG, ``Audit of NASA Grants Awarded to the Alabama Space 
Science Exhibit Commission's U.S. Space and Rocket Center'' (IG-12-016, 
June 22, 2012); NASA OIG, ``Audit of NASA Grants Awarded to the 
Philadelphia College Opportunity Resources for Education'' (IG-12-018, 
July 26, 2012); and NASA OIG, ``Audit of NASA Grant Awarded to 
HudsonAlpha Institute for Biotechnology'' (IG-12-019, August 3, 2012).
---------------------------------------------------------------------------
    NASA is faced with the challenge of conducting active oversight of 
grant recipients within resource and staffing limitations. 
Consequently, we will continue to focus resources in this area as the 
Agency works to enhance its grant management processes.
Information Technology Security and Governance
    NASA's portfolio of information technology (IT) assets includes 
more than 550 information systems that control spacecraft, collect and 
process scientific data, and enable NASA personnel to collaborate with 
colleagues around the world. Hundreds of thousands of NASA personnel, 
contractors, academics, and members of the public use these IT systems 
daily and NASA depends on them to carry out its essential operations. 
Overall, NASA spends more than $1.5 billion annually on its IT-related 
activities, $58 million of that for IT security. Although many NASA IT 
systems contain data that may be widely shared, some systems house 
sensitive information which, if lost or stolen, could result in 
significant financial loss, adversely affect national security, or 
significantly impair our Nation's competitive technological advantage.
    Over the past 5 years, we have issued 21 audit reports containing 
69 IT-related recommendations. In addition, OIG investigators have 
conducted more than 16 separate investigations of breaches of NASA 
networks, several of which have resulted in the arrests or convictions 
of foreign nationals in China, Great Britain, Italy, Nigeria, Portugal, 
Romania, Turkey, and Estonia.
    IT Security Weaknesses.--Through our audits and investigations, we 
have identified systemic and recurring weaknesses in NASA's IT security 
program that adversely affect the Agency's ability to protect the 
information and information systems vital to its mission. For example, 
NASA has been slow to implement full-disk encryption on notebook 
computers and other mobile computing devices it provides to its 
employees, potentially exposing sensitive information to unauthorized 
disclosure when such devices are lost or stolen. Between April 2009 and 
April 2011, NASA reported the loss or theft of 48 Agency mobile 
computing devices, which resulted in the unauthorized release of 
sensitive information including Social Security numbers, export-
controlled data on NASA's Constellation and Orion programs, and third-
party intellectual property. Although NASA has selected an enterprise 
solution for encrypting data on its mobile computing devices and hopes 
to complete implementation by March 31, 2013, until this process is 
complete, sensitive data on the Agency's mobile computing and portable 
data storage devices will remain at high risk for loss or theft.
    We also found that NASA continues to experience challenges as it 
moves from a compliance-focused ``snapshot'' approach for measuring the 
security of its IT systems to using tools and techniques to perform 
real-time security control monitoring. Although NASA has made progress 
implementing such a continuous monitoring program, the Agency needs to: 
(1) create and maintain a complete, up-to-date record of IT components 
connected to Agency networks; (2) define the security configuration 
baselines that are required for its system components and develop an 
effective means of assessing compliance with those baselines; and (3) 
use best practices for vulnerability management on all its IT systems. 
Only by making improvements in each of these areas can NASA ensure that 
its continuous monitoring program will adequately protect Agency IT 
assets.
    The CIOs inability to ensure that NASA's mission computer networks 
implement key IT security controls continues to put these critical IT 
assets at risk of compromise. Through our work we have found that 
Agency mission networks do not consistently implement key IT security 
controls. For example, the Agency has not yet implemented two 
recommendations from a May 2010 OIG audit report to monitor its mission 
networks for the presence of critical software patches and technical 
vulnerabilities.\31\ Moreover, our detailed control tests of mission 
networks in 2010 and 2011 identified several high-risk technical 
vulnerabilities on systems that provide mission support to spacecraft. 
Until NASA implements measures to better protect its mission networks, 
they will remain at risk of compromise, which could have a severe 
adverse effect on NASA operations, assets, or personnel.
---------------------------------------------------------------------------
    \31\ NASA OIG, ``Review of the Information Technology Security of 
[a NASA Computer Network]'' (IG-10-013, May 13, 2010).
---------------------------------------------------------------------------
    Attacks on Information Technology Infrastructure.--In 2010 and 
2011, NASA reported 5,408 computer security incidents resulting in the 
installation of malicious software on or unauthorized access to its 
computers. Such incidents disrupt Agency operations and can result in 
the loss or theft of sensitive data from NASA systems. NASA remains a 
target both because of the large size of its networks and because its 
information is highly sought after by criminals attempting to steal 
technical data or further other criminal activities. Moreover, NASA has 
increasingly become a target of a sophisticated form of cyber attack 
known as advanced persistent threats (APTs). The individuals or nations 
behind these APTs are typically well organized and well funded and 
often target high-profile organizations like NASA. Our investigation of 
a recent APT attack at the Jet Propulsion Laboratory (JPL) involving 
Chinese-based Internet protocol addresses has confirmed that the 
intruders gained full system access to numerous JPL systems and 
sensitive user accounts. With full system access the intruders could: 
(1) modify, copy, or delete sensitive files; (2) add, modify, or delete 
user accounts for mission-critical JPL systems; (3) upload hacking 
tools to steal user credentials and compromise other NASA systems; and 
(4) modify system logs to conceal their actions.
    In an effort to improve the Agency's capability to detect and 
respond to these evolving threats, in November 2008 NASA consolidated 
its Center-based computer security incident detection and response 
programs into a single, Agency-wide computer security incident handling 
capability called the Security Operations Center (SOC). In an August 
2012 audit, we found that establishment of the SOC had improved NASA's 
computer security incident handling capability by providing continuous 
incident detection coverage for all NASA Centers.\32\ Moreover, the 
SOC's communication processes, including weekly conference calls and 
security bulletins, were effective for sharing security incident and 
threat information with responders across the Agency. Finally, we found 
that NASA implemented an effective information system that enables 
Agency-wide management and reporting of IT security incidents.
---------------------------------------------------------------------------
    \32\ NASA OIG, ``Review of NASA's Computer Security Incident 
Detection and Handling Capability'' (IG-12-017, August 7, 2012).
---------------------------------------------------------------------------
    However, we also found that NASA's computer systems and networks 
remain at high risk for loss of sensitive data because the Agency's 
network firewalls and the SOC's intrusion detection capability are 
ineffective for either detecting or preventing APTs from bypassing the 
Agency's firewalls and perimeter defenses. Moreover, even after NASA 
fixes the vulnerability that permitted the attack to succeed, the 
attacker may covertly maintain a foothold inside NASA's system for 
future exploits. The increasing frequency of APTs heightens the risk 
that key Agency networks may be breached and sensitive data stolen. We 
made three recommendations in our report for enhancing the Agency's 
capability to detect and prevent these types of sophisticated cyber 
attacks and to improve overall SOC availability. The Agency is in the 
process of implementing these recommendations.
    NASA Information Technology Governance.--Achieving the Agency's IT 
security goals will require sustained improvements in NASA's 
overarching IT management practices and governance. Effective IT 
governance is the key to accommodating the myriad interests of internal 
and external stakeholders and making decisions that balance compliance, 
cost, risks, and mission success. Effective IT governance also helps 
ensure that public funds are efficiently spent by coordinating spending 
across NASA when purchasing IT products and services.
    Federal law and NASA policy designate the Agency Chief Information 
Officer (CIO) as the official responsible for developing IT security 
policies and procedures and implementing an Agency-wide IT security 
program. However, we have found that the CIO has limited ability to 
direct NASA's Mission Directorates to fully implement CIO-recommended 
or mandated IT security programs.
    NASA's IT assets generally fall into two categories: (1) the 
``institutional'' systems and networks the Agency uses to support such 
administrative functions as budgeting and human resources; and (2) the 
``mission'' systems and networks that support the Agency's aeronautics, 
science, and space programs such as the Mission Operations Directorate 
at Johnson Space Center, the Huntsville Operations Center at Marshall 
Space Flight Center, and the Deep Space Network at JPL. While the CIO 
has a complete inventory of and the authority to implement the Agency's 
IT security program for NASA's institutional IT assets, the CIO cannot 
fully account for or ensure that NASA's mission IT assets comply with 
applicable IT security policies and procedures.
    IT assets on NASA's mission computer networks are funded by the 
related Mission Directorate, which is responsible for IT security, 
including the authority for risk determination and risk acceptance. 
Moreover, IT staff responsible for implementing security controls on 
mission IT assets report to officials in the Mission Directorate, not 
the NASA CIO. Thus, the CIO does not have the authority to ensure that 
NASA's IT security policies are consistently followed across the 
Agency.
    We are currently conducting a review examining NASA's IT governance 
structure and anticipate making recommendations for improvement.

                            NASA PRIORITIES

    Senator Shelby. Thank you, Administrator Bolden. It's hard 
not to call you General Bolden, because we go back a while.
    Administrator Bolden, over the past 2 years, in testimony 
before this and other committees, you stated that NASA's top 
priorities are SLS, Orion, JWST, and the ISS. In your testimony 
today, you do not take, I believe, a similar position. In fact, 
you're specifically talking about commercial crew being NASA's 
top priority.
    This statement is reflective of this budget with respect to 
commercial crew. But I'm interested to learn why NASA no longer 
counts these other programs as top priorities and how our 
longstanding investments in these other programs will be 
impacted by NASA's changing priorities.
    Could you explain that to the subcommittee?
    Mr. Bolden. Mr. Chairman, I hope this will not be 
considered a disagreement with the chairman, because that's not 
healthy, but NASA's priorities are the Nation's priorities, and 
they remain SLS, multi-purpose crew vehicle (MPCV), JWST, and 
the ISS, shored up by a vigorous technology development program 
and commercial crew and cargo.
    The reason I emphasized commercial crew in my opening 
statement is because this is a year of decision. We promised 
that we would have a commercial crew capability for the Nation 
by 2015, if funded at the President's requested level back in 
2011, and that funding did not come. We now find ourselves 
targeting 2017 for the first availability of a U.S. capability 
to launch American astronauts to space.
    If we do not get $822 million in the fiscal year 2014 
budget as requested by the President, it will be my unfortunate 
duty to advise the Congress and the President that we probably 
will not make 2017 for the availability of an American 
capability to get our astronauts to space. I will have to tell 
you that I'm going to have to come back and ask for 
authorization to once again pay the Russians to take our crews 
to space.
    We just renewed a contract for another year, because we 
weren't able to have our own capability in 2015. It is not my 
desire to come back to this subcommittee and to the Congress 
and the President and ask for more money to pay the Russians.
    Senator Shelby. We're joined by the chairwoman, and I'll 
yield back the gavel.
    Mr. Bolden. Welcome, Madam Chair.
    Chairwoman Mikulski [presiding]. Good morning, Mr. Bolden. 
First of all, let me apologize. It took 2 hours to get here 
from Baltimore this morning. I needed one of your rocket ships 
or something.
    Mr. Bolden. I needed one coming from Mount Vernon. I, too, 
was late.
    Chairwoman Mikulski. Well, you're coming from the other 
side of the Potomac, but I'm beginning to think this--anyway, 
so I really apologize for being late. But it shows the 
bipartisan nature of this subcommittee and this Committee, with 
my vice chairman, Senator Shelby. I had absolute confidence 
that he could take this over, because we're going in the same 
direction with the Committee, and we're going in the same 
direction with the space program.
    We do want to welcome you. And today is a very compressed 
day. The hearing must end no later than 10:30 a.m.
    Just know that, first of all, as we review the President's 
budget, and the fact that we're facing sequester, and then the 
usual challenges of NASA, where we ask you to do more than 
less, there are many things that we would like to discuss with 
you.
    But I believe that our overall thrust is that we are 
looking on a bipartisan basis to be an advocate for a balanced 
space program. And a balanced space program to us means all of 
the groundwork for continued human space exploration; reliable 
space transportation mechanisms, both to carry our astronauts 
and then also to be able to service the ISS; to continue 
America's exceptionalism in space science; and to continue our 
work in aeronautics.
    We believe that NASA is an economic engine, and we want to 
continue out-innovating the rest of the world. But at the same 
time, we have to be stewards of the taxpayer's dollar with 
oversight and accountability.
    So having looked at that, Senator Shelby, did you ask any 
questions yet?
    Senator Shelby. Just one.
    Chairwoman Mikulski. What was--may I ask----
    Senator Shelby. We were just getting into the priorities of 
NASA.
    Chairwoman Mikulski. Well, you know, Mr. Chairman, while I 
go over mine, why don't you continue your line of questioning? 
But I just wanted to welcome Administrator Bolden and apologize 
for the delay. Why don't you do that?

                  SPACE LAUNCH SYSTEM BUDGET ESTIMATES

    Senator Shelby. Thank you. Thank you, Madam Chairman.
    I have a couple more areas, General Bolden, I'd like to get 
into.
    In August 2011, an independent cost assessment determined 
that NASA's budget estimates for SLS were reasonable through 
2015. These budget numbers assume that costs for SLS rocket 
development in the year 2014 would be $1.61 billion. But NASA's 
budget request, I understand, is $1.38 billion. That's $227 
million less than was expected to be needed. That's a large 
swing in the cost model that raises questions, I think, whether 
the difference is attributed to cost savings or is it a lack of 
commitment to the mission?
    Could you explain what that is, General, and why?
    Mr. Bolden. Mr. Chairman, first of all, the independent 
cost assessment was requested, as we have done for JWST, for 
SLS, for MPCV, and most recently for the commercial crew 
program. It is not surprising that every time we get an 
independent cost assessment, one of their first determinations 
is that we don't have enough money.
    So while we accept the assessment of the independent cost 
assessment that they would like to see more--they consider it 
reserve. We acknowledge the fact that we did not have the 
amount of reserve that we would like to have, but that we were 
confident that we could carry out this program with a budget 
that we requested.
    As Mr. Gerstenmaier has testified before this and other 
committees in the past, we are running all of our programs to 
include commercial cargo and crew at the lowest level that we 
feel confident we can deliver them on time.
    So that's the difference between what the independent cost 
assessment said they thought we should have to provide adequate 
reserves and what we think we can do the program with.
    Senator Shelby. Well, some of us are concerned about the 
funding necessary for the SLS rocket development and, of 
course, the other components. But, you know, we're talking 
about SLS rocket.
    And if there's truly cost savings being realized, could you 
detail these actions to us, to the subcommittee, and an 
understanding of how similar measures are being applied across 
NASA's programs to achieve similar savings?
    Mr. Bolden. I can say that----
    Senator Shelby. In other words, we're concerned, and I hope 
there's not a lot of ground for it, about SLS, the rocket 
itself, not the component.
    Mr. Bolden. I could stand corrected by somebody in my 
organization, but we don't advertise that we have realized cost 
savings on the SLS program. What we have done is we've 
exercised efficient management of the program.
    Senator Shelby. We like that.
    Mr. Bolden. And when we talk about the SLS program, I do 
want to be careful that I include everything that's involved in 
that program. So we have completed significant upgrades to 
Launch Complex 39B that is being prepared for SLS. The B-2 Test 
Stand at Stennis is being prepared for main propulsion test, 
which is a critical part of the preparation of SLS for its 2017 
launch.
    The J-2X engine has undergone numerous, very successful 
tests at Stennis. We've run it 500-plus seconds more than one 
time, and that puts us ahead of the game. I will say, we don't 
need to be ahead of the game with the J-2X, but because we've 
committed that we would do that, we did.
    We recently completed the very first test of a major engine 
component at Marshall in firing the gas generator for a rebuilt 
F-1 engine with Dynetics. Those are all examples of the 
progress that we continue to make with the SLS program.
    Senator Shelby. But, General, my emphasis is on the rocket 
itself, specifically, not all the ancillary things, the 
components.
    Mr. Bolden. Yes.
    Senator Shelby. Because you've got to have that.
    Mr. Bolden. Yes. I had a conversation with J.R. Thompson, 
who I know you know very well. He cautioned me this Sunday or 
last week, when we were waiting for Orbital to launch, not to 
become overly aggressive with the rocket and forget that the 
rocket is built to support an entire program. I could very 
easily find myself just like we were with Constellation. We 
need a 70-metric-ton vehicle, and we are on schedule, on 
target, on cost to provide that 70-metric-ton vehicle. I will 
need a 105-metric-ton vehicle probably in 2023. I think we're 
on target, on cost, on schedule in the development of that. 
It's an evolving system, and we'll get there.
    Senator Shelby. But you agree that you've got to have the 
engine--that's the rocket--to move and go anywhere? And just 
like you've got to have an engine in a car, you can have the 
finest components in the world and a beautiful seat and a good 
radio and good tires, but no engine, you're going nowhere.
    Mr. Bolden. Senator Shelby, you and I agree completely. I 
think it's said that all roads to space lead through 
Huntsville, Alabama.
    Senator Shelby. I want to work with you on that.
    Mr. Bolden. And Stennis. And that's very true.
    And we are on schedule for having a 70-metric-ton vehicle 
at the level of spending that we----
    Senator Shelby. Will you furnish some details on all this 
to the subcommittee?
    Mr. Bolden. We will do that, sir. I'll take that.
    Senator Shelby. Okay.
    [The information follows:]

    NASA is committed to developing the SLS for missions of deep space 
exploration. The fiscal year 2014 President's budget request, balancing 
the Nation's goals for space exploration with the current fiscal 
climate, provides the necessary funding profile required to keep SLS, 
Orion, and EGS moving forward to achieve EFT-1 in 2014, EM-1 in 2017, 
and EM-2 in 2021. The Agency plans to evolve SLS to achieve the 105 
metric ton (mT) capability, and NASA believes the out-year resources 
envisioned in the fiscal year 2014 budget request will be sufficient to 
meet that goal in the 2023 timeframe. The 130 mT upgrade of SLS is 
planned for Mars-class missions in the 2030s.

                    COMMERCIAL SPACE ACT AGREEMENTS

    Madam Chairman, I have one last area to get into, if I 
could, and that's commercial space.
    Chairwoman Mikulski. Please, go right ahead, because your 
questions are actually identical, Sir, to what I was going to 
ask.
    Senator Shelby. Thank you.
    I alluded to Commercial Space Act Agreements in my opening 
statement. NASA has used Space Act Agreements rather than 
traditional Federal Government contracts to execute the 
commercial cargo and crew programs. These agreements lack 
transparency and incorporate significant schedule leniency.
    Traditional Government contracts provide full insight and 
control over the contractor and the product throughout the 
process to protect the Government's investment, and ultimately 
the taxpayer.
    With respect to the Space Act Agreements, it's my 
understanding that NASA has no authority to review the work of 
the contractors, audit their programs, or investigate in the 
event of an accident. Is that true?
    Mr. Bolden. Mr. Chairman, that is a misconception of the 
capability of Space Act Agreements. We have had satisfactory 
insight and oversight on both commercial crew and cargo. We 
have embedded teams in the factories of our commercial crew 
partners, and we're still working fully on Space Act 
Agreements. They are an integral part, so we have sufficient 
insight for me.
    Senator Shelby. Do you have to ask the contractor to give 
you access to the Space Act Agreements that would give you some 
absolute authority over the contractor? And why does NASA 
prefer that approach, as opposed to the other government 
contracts?
    Mr. Bolden. The reason we'd prefer----
    Senator Shelby. This is a deviation from the Government 
contracts.
    Mr. Bolden. Yes, the reason we'd prefer Space Act 
Agreements at this stage of the game for commercial crew is the 
same reason we did it for commercial cargo. We wanted to give 
American industry as much leeway as possible to produce a 
vehicle that fulfilled the requirements that we set. It has 
worked very well for us, as demonstrated by the success of both 
Orbital and SpaceX, when we got to the point where we entered 
into a Federal Acquisition Regulation (FAR)-based contract.
    Senator Shelby. Well, if you're the one that's paying the 
bill and they're doing it, it looks to me like you should be in 
control of the destiny of that to a point, through the contract 
system.
    Mr. Bolden. Sir, again, it's a misconception that we don't 
know what they're paying into it.
    Senator Shelby. Okay.
    Mr. Bolden. We are a partner. When we did the independent 
cost assessment, then Booz Allen was able to go into the 
company, and granted, it's proprietary information.
    Senator Shelby. Sure.
    Mr. Bolden. Without revealing what they had put into it, 
because that's competitive sensitive for them, we know about 
what each company has put into it.
    Senator Shelby. Okay. We don't want you to be in the dark 
anywhere, because it's taxpayers' money.
    Mr. Bolden. I don't feel that we're in the dark with any of 
the contractors either in commercial crew or cargo. We feel 
very confident that we know about what level they're paying. We 
don't know the precise amount, because we don't get fiscal 
accounting the way that would be required if we were working 
under a FAR-based contract, but they are now working under FAR-
based contracts in the Commercial Crew integrated Capability 
(CCiCap) program, which is--not the CCiCap, but the 
requirements definition program. That's a FAR-based contract. 
We have total insight into everything that they're doing. So 
when we get ready to roll out the request for proposals here 
this summer, we'll be confident that we know what they're 
doing.
    Senator Shelby. We just know that this is a deviation from 
the regular government contracts. We want to make sure----
    Mr. Bolden. Most agencies don't have the----
    Senator Shelby [continuing]. That NASA spends our money 
wisely. That's all.
    Mr. Bolden. Yes, Sir. NASA uses Space Act Agreements 
judiciously, but we use them widely, because it enables us to 
do much more than any other agency and the government can do 
for the budget that we have. We use it as a budget tool.
    Senator Shelby. Thank you.
    Thank you, Madam Chairman.

                         BALANCED SPACE PROGRAM

    Chairwoman Mikulski. I really truly appreciate Senator 
Shelby's line of questioning, because this goes to the balanced 
space program, and actually, his questions were very much along 
the line that I was going to ask.
    I was troubled by the fact that there were decreases in the 
SLS rocket and Orion capsule program by $184 million.
    As the chair of the subcommittee, working with Senator 
Shelby, I'm worried. So let me tell you what I'm worried about.
    I believe that NASA has been constrained over several years 
now with staying roughly in this $17 to $18 billion range. We 
ask you to make estimates, and there's been a pattern not only 
in NASA, but across all agencies, to low-ball estimates. Then 
those low-balling of estimates tend to be inaccurate, and then 
along comes something like sequester, which has a tremendous 
impact on employees, both our civilian Federal employees, our 
contractors, because NASA is truly a work-with-contractor 
agency and has a fairly good track record on that.
    We're going to get to the end of the day with a fiscal 
quagmire unresolved, the space agency and other agencies--
Department of Defense (DOD) is the same way and others--
underestimating what it's going to take.
    And then we end up with programs that falter or sputter. 
And in NASA's mission, faltering or sputtering really can blow 
the whole program.
    So you see where I am.
    Mr. Bolden. Yes, ma'am.
    Chairwoman Mikulski. One set of dynamics, our fiscal 
quagmire, was shutdown, slam-down politics that are not 
characteristic of this subcommittee--in fact, just the 
opposite--that we have to resolve.
    And so my question to you, as we look at this, is that 
facing sequester and facing the estimates in the President's 
budget, do you think you can keep these NASA missions on track 
and online?
    Or are we really asking for an almost impossible task of 
you, Director Bolden?
    And I mean it very sincerely. You are a very dedicated 
person. You were heading in a whole different life before 
President Obama asked you to take this job.
    Mr. Bolden. I was.
    Chairwoman Mikulski. Yes, I know. You were going to start a 
foundation oriented to sickle-cell anemia. I mean, you were 
going to devote your life to inspirational motivation of young 
people and cracking a biomedical problem facing Americans. Now 
you're staying on for yet another tour of duty.
    So, please, let's get realistic estimates, so we know what 
we're really facing and what we should really be doing to 
maintain a balanced space program.
    Mr. Bolden. Madam Chairman, I agree with you. Let me say, 
my assumption in recommending this budget to the President and 
the President's assumption in sending it to the Congress was 
that, between him and all of you, the 100 Senators and 400-plus 
Members of Congress, we are going to solve the sequester 
problem in this budget coming out.
    If that is not done, then I will tell you right now, what 
I'm telling you about today, I can't do. So you're going to see 
us come in and tell you that it will impact the priorities that 
NASA and the Congress agreed to. It will potentially impact 
JWST. It will definitely impact SLS, MPCV. It will devastate 
commercial crew and cargo. We have contracts now for commercial 
cargo. I'll have to renegotiate those contracts. We won't fly 
the number of missions that we have. Right now, we're flying 20 
commercial cargo missions to the ISS over the next 5 years for 
$3-point-some-odd billion dollars, an incredible value to the 
Nation. I can't carry that out under sequester.
    I will, in all probability, have to furlough civil 
servants, and we have avoided that.
    So the sequester is not good. And I'm not telling anybody I 
can work a miracle. If we cannot get out from under the 
sequester, all bets are off. And you are absolutely right, I'm 
going to come to you and tell you things that we're dropping 
off the plate.
    Chairwoman Mikulski. But this is the time to tell us. In 
other words, this is not in the future. The sequester is here 
now.
    So this is not, again, meant to be in any way pugnacious.
    So let's look at the sequester issue. And if we do not 
cancel or find a way to cancel the sequester, what would be the 
consequences? Would it be simply delays to these projects?
    Let's take three things. Let's take the JWST. Let's take 
the SLS Orion. And let's take other important scientific 
programs.
    Mr. Bolden. Let me just say one quick thing. We are under 
the sequester now, and so we're operating under fiscal year 
2013 budget sequestered.
    We have made adjustments such that it has not impacted our 
programs, nor our people just yet. But we cannot do that in 
fiscal year 2014. So you're absolutely right.
    Chairwoman Mikulski. When will it actually affect you? In 
other words, everybody says the sequester is a made-up crisis 
and----
    Mr. Bolden. No, it's not a made-up crisis.
    Chairwoman Mikulski. In other words, if you have to 
furlough people, when will you start doing it?
    Mr. Bolden. If we do not come out from under the sequester 
for the fiscal year 2014 budget, we'll start furloughing people 
when the fiscal year 2014 budget becomes effective.
    Chairwoman Mikulski. That would be October 1.
    Mr. Bolden. That would be October 1. We'll have to start 
looking at----
    Chairwoman Mikulski. So we have some elasticity of time, 
but not an open-ended situation.
    Mr. Bolden. Time is not my ally, but time is my friend 
right now when it comes to the workforce.
    Chairwoman Mikulski. Well, we are your friend, but anyway, 
let me go then to the next question.
    Many of our colleagues have said, oh, give the agencies 
flexibility. If you have flexibility, which I wanted to do, and 
many on the other side of the aisle wanted. There were higher 
powers that didn't. I wanted to give agencies a 1 percent 
transfer, reprogramming authority so we could keep our 
constitutional prerogatives and that of this subcommittee 
across programs, not across agencies. Like you couldn't go to 
the FBI, and they couldn't come to you, but across programs.
    Would transfer authority solve your problem? Or is it truly 
the whole NASA that you would be still too constrained?
    Mr. Bolden. Transfer authority, as you describe it, would 
always be helpful, and that's what we've requested or we have 
said----
    Chairwoman Mikulski. But would it solve your problem?
    Mr. Bolden. Under the sequester, transfer authority, even 
as you describe it, would not solve the problem.
    Chairwoman Mikulski. Why not?
    Mr. Bolden. We still will have to drop something from our 
portfolio. We would become a $16.2 billion agency, and, you 
know, we're down almost $1 billion this year. We're managing to 
do that. The sequester would take us down another huge notch, 
and then----
    Chairwoman Mikulski. What is the number attached to a huge 
notch?
    Mr. Bolden. I think right now, we're operating at $16.8 
billion, and we would go down to $16.1 billion in fiscal year 
2014, I think is the right number, but I'll get back to you.
    [The information follows:]

    In fiscal year 2014, under current law and assuming a continuing 
resolution, NASA expects to be subject to a sequester of approximately 
7.8 percent from the $17.492 billion enacted level in the fiscal year 
2013 CJS appropriation. This equates to a total of $16.159 billion and 
approximates the $16.1 billion level I referred to in my testimony. As 
we have discovered in the past few months, the application of the 
sequester is not entirely straightforward and we have not received any 
guidance on the process for fiscal year 2014, so please view this as an 
estimate.

    Chairwoman Mikulski. Mr. Administrator, my time is moving 
along, and I want to be sure that Senator Cochran has an 
opportunity.
    What I would appreciate, and I think members of the 
subcommittee, is what would be--you've sent me a letter, I 
believe, on the consequences of that.
    Mr. Bolden. We did. Yes, ma'am.
    Chairwoman Mikulski. Does that outline it pretty well?
    Mr. Bolden. That outlines pretty well what the effect would 
be. At that time, we gave you what we knew, and things have 
probably gotten more dire since then.
    Chairwoman Mikulski. Well, then if you have an update or an 
annex, we would like to see it.
    Mr. Bolden. Yes, ma'am. We will do that.
    [The information follows:]

    NASA has subsequently submitted the fiscal year 2013 operating 
plan, which serves as an update to the original letter to the Senator 
regarding effects of sequestration.

                   JAMES WEBB SPACE TELESCOPE STATUS

    Chairwoman Mikulski. Now let me go right to one of our 
biggest scientific endeavors, the JWST. And if we don't keep 
that on track, where we've already had overruns I'm very 
concerned about, but if we don't keep the JWST within making 
sure we maintained all standards and practices of 
accountability, I'm afraid that the JWST overruns could begin 
to eat NASA alive.
    And you know I'm a big supporter of the JWST. I believe it 
will keep America's exceptionalism in astronomy going beyond 
the Hubble Space Telescope (HST), with not only the power of 
the HST, but would keep us as premier space astronomers for the 
next 50 years.
    So here is my question about that. Looking at the JWST and 
the fact that there are now additional Government 
Accountability Office (GAO) reports that say there continue to 
be flashing yellow lights, could you give us the status of the 
JWST? Is it online? How are we doing on maintaining the fiscal 
accountability that both you and Northrop Grumman promised me, 
and yet address the issues around the GAO?
    And then I'd like to turn to Senator Cochran.
    Mr. Bolden. Yes. Madam Chairman, as I mentioned to you the 
first time I called, nobody was as devastated as I was to find 
out the situation that James Webb was in. But as I promised 
you, when we restructured the program, we changed the 
management both in Northrop Grumman and NASA. We developed a 
new cost and schedule timeline. We are on schedule for a launch 
in 2018. We have a 14-month pad in the critical path for the 
telescope.
    The reference that you make to the GAO report refers to two 
instruments, Near Infrared Spectrograph (NIRSpec) and Near 
Infrared Camera (NIRCam), we saw that the vendors were not 
going to be able to deliver on time, so we modified the 
schedule such that they could fit in, because it's critical 
that they be integrated into the telescope by the time it goes 
into the large test cell at the Johnson Space Center in the 
next few months. They are now on schedule to be delivered and 
will be there.
    So we are on budget. We are on schedule. I look at JWST, 
post-your conversation with me, as I do Mars Atmosphere and 
Volatile Evolution (MAVEN) and Landsat Data Continuity Mission 
(LDCM) and some other missions, that by doing things 
differently than we always did them, we now are bringing in 
missions on cost, on schedule. We have done that for most of 
the missions that we have launched in the last couple of years. 
I'm very proud of that. We have a tremendous team that's really 
focused on the things that you asked us to focus on.
    Chairwoman Mikulski. Well, thank you very much.
    Senator Cochran, thank you for your patience, Sir.

                             B-2 TEST STAND

    Senator Cochran. Madam Chairman, thank you for allowing me 
to join your subcommittee for this hearing. It's a pleasure to 
serve as a member of the subcommittee with such distinguished 
Senators as you and Senator Shelby.
    Mr. Administrator, one of the facilities that NASA 
administers is the Stennis Space Center down the Mississippi 
gulf coast, as you well know.
    Funding is needed from time to time to maintain its 
capabilities, and I'm here to see if the funding levels that 
are in the budget are sufficient to maintain the integrity of 
the test stand, where you will test the engines before you 
actually commit them to a launch.
    And if there are deficiencies, I hope you will advise us 
what they are and your suggestions for dealing with them.
    Mr. Bolden. Sir, it is my opinion that we have sufficient 
funds to continue the work that we're doing with Stennis. We're 
progressing well on the upgrades to the B-2 Test Stand, which, 
as I mentioned before, will be critical for main propulsion 
tests for SLS. Their record of performance in meeting test 
schedules not only for the J-2X, but for even our commercial 
partners' rockets, is phenomenal. We have days that we run two 
or three engine tests, and that's unprecedented.
    So I think we're doing very well. It will be a challenge of 
them, and I'll go back to what Senator Mikulski said. Sequester 
is serious, and the sequester is real. All the progress that we 
made at Stennis will come to a screeching slow, if not a halt, 
if we have to live under sequester.
    By the way, Sir, I want to thank you for all you did when 
you were ranking member of the Committee and your hospitality 
when I come to Mississippi.
    Senator Cochran. Well, thank you very much.
    Well, you know, the President proposes and the Congress 
disposes.
    Mr. Bolden. Yes, Sir.
    Senator Cochran. And that's something that reflects the 
responsibilities of our body in participating in the decisions 
regarding funding and the expenditure of taxpayer dollars on 
Federal programs. So your advice and your observations about 
the needs for funding are considered very important, because we 
know that you're familiar with the test stand and how it is 
producing some additional resources for NASA. And we want to be 
sure that we do our part here to maintain the integrity of that 
facility.
    Mr. Bolden. Yes, Sir.
    Senator Cochran. Thank you.
    Chairwoman Mikulski. Mr. Administrator, there are many 
questions we'd like to continue to pursue. But there's been a 
special briefing called for Senators on both North Korea and 
Syria, and as the vice chairman of the Defense Committee and we 
who are the appropriators, we need to attend that briefing.
    We want to thank you for your ongoing service, sir. And it 
is really noted and appreciated.
    You have a big job. We have a big job.
    And Senator Shelby and I were just talking about the fact 
that we want to return to a regular order of this committee, 
where we would take bills one at a time. But in order to do 
that, we have to meet our--I have to give allocations between 
May 15 and May 20.
    There's a discrepancy. The American Taxpayer Relief Act of 
2012 tells us to mark up our bills at a 302(a) level of $1.058 
trillion. Mr. Ryan has passed a budget at $966 billion and 
taken all of the cuts out of discretionary spending.
    So we've got that fiscal quagmire that I've talked about. 
But we're going to work together on a bipartisan basis, and we 
hope that the President, through his outreach to others, and 
the House would cooperate, and Mr. Ryan would appoint 
conferees, that there could be a reconciliation.
    I think people don't quite yet grasp the significance of 
the sequester, because this is what the discrepancy is. We're 
set to go. And I've instructed my clerks and subcommittee 
chairmen--and I know Senator Shelby--we're not only spenders on 
this Committee, we also have a sense of frugality and wise 
spending. We're concerned that if we have sequester, we could 
end up by being pennywise and pound foolish, by ending up with 
boondoggles because of delay in schedules, et cetera.
    So we've got a big job ahead, but so do you.
    Mr. Bolden. Yes, ma'am.
    Chairwoman Mikulski. So please keep in touch with us. And 
we want to thank you for your cooperation at this abbreviated 
hearing.
    As we go forward with the markup on our bill, both Senator 
Shelby and I and other members, along with our key staff, will 
be in touch with you.
    Mr. Bolden. Yes, ma'am.
    Chairwoman Mikulski. So for you, it's not keep the eye on 
the ball. Keep your eye on those rockets and telescopes, and 
let's keep America flying.
    Mr. Bolden. Thank you very much, Madam Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairwoman Mikulski. If there are no further questions this 
morning, Senators may submit official questions for the 
subcommittee's hearing record.
    We ask NASA to respond within 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
           Questions Submitted to Hon. Charles F. Bolden, Jr.
            Questions Submitted by Senator Dianne Feinstein
                            mars exploration
    Question. The Curiosity Rover landing and the astonishing images 
coming back from Mars have generated enormous public support for Mars 
exploration. The scientific community broadly supports the next Mars 
mission as well, as demonstrated by its top ranking in the National 
Research Council's Decadal Survey. Moreover, Congress gave clear 
direction to prioritize this program in fiscal year 2013, reversing the 
severe cuts proposed in the President's budget. Despite congressional, 
scientific, and public support, the budget proposal for Planetary 
Science and Mars this year looks remarkably similar to last year. Why 
has the administration chosen to scale back this critical funding so 
significantly?
    Answer. The Mars 2020 rover mission continues the pursuit of the 
Mars Exploration Program's science theme of ``Seeking the Signs of 
Life.'' The mission objectives are to explore an astrobiologically 
relevant ancient environment on Mars and to search for potential 
biosignatures within that geological environment. This mission will 
enable concrete progress toward eventual return to Earth of carefully 
selected materials, thereby satisfying NRC Planetary Decadal Survey 
science recommendations, and it will provide opportunities for 
accommodation of contributed Human Exploration & Operations Mission 
Directorate (HEOMD) payload element(s), technology infusion, and 
international participation.
    Currently, a Science Definition Team is working to outline the 
science measurements required to meet the above objectives for Mars 
2020, and the project team is assessing the engineering requirements 
and defining the overall mission concept, including the use of residual 
flight hardware and expertise from the Mars Science Laboratory (MSL) 
mission. As the mission concept is further developed, we will proceed 
to a Mission Concept Review in the fall of 2013, which will be followed 
by an openly competed payload Announcement of Opportunity.
    At the time of the fiscal year 2014 budget formulation, NASA was in 
the early stages of defining the 2020 mission, and significant 
uncertainties remain as to the phasing of the mission's overall budget 
pending the results of the Science Definition Team and the upcoming 
Mission Concept Review later this year. The fiscal year 2015 budget 
formulation process will provide the opportunity to assess the budget 
profile for the Mars 2020 mission based on this better understanding of 
mission requirements.
    Question. The Mars Program funding profile in the budget recommends 
funding increases in fiscal years 2017 and 2018. But the increases 
would only occur after severe lean years in fiscal years 2014, 2015 and 
2016. How will NASA maintain its experienced and successful ``entry, 
descent and landing'' team in the coming years with this budget?
    Answer. NASA's Science Mission Directorate recognizes that making 
steady progress towards the Mars 2020 mission launch will be critical 
to retaining the core capabilities in MSL-based Sky-Crane entry, 
descent and landing and Curiosity-class rover engineering systems. 
Currently, members of the Curiosity Entry, Descent, and Landing (EDL) 
team are engaged in reconstruction and analysis of data taken during 
Curiosity's landing to provide critical information for future Mars 
landers and rovers. Some members of the team are also supporting other 
Agency efforts in the immediate term. The ongoing concept definition 
for Mars 2020 will provide input to the fiscal year 2015 budget 
process, including the workforce requirements.
    Question. In an effort to save money, the re-scoped Mars mission 
for 2020 called for a rover that has a virtually identical design as 
Curiosity, but carries different scientific instruments. This was done 
to streamline costs and maintain an early launch date within a limited 
budget. But, it is my understanding that the budget will not allow the 
suppliers and staff who worked on Curiosity to begin work on the new 
vehicle for several years. Why have you chosen to delay rover 
construction even though the staff and suppliers are available to do 
the work today?
    Answer. At the time of the fiscal year 2014 budget formulation, 
NASA was in the early stages of defining the 2020 mission, and 
significant uncertainties remain as to the phasing of the mission's 
overall budget pending the results of the Science Definition Team and 
the upcoming Mission Concept Review this year. Currently, the team is 
preparing for acquisition of key long-lead parts. The fiscal year 2015 
budget formulation process will provide the opportunity to assess the 
budget profile for the Mars 2020 mission based on this better 
understanding of mission requirements.
                            commercial crew
    Question. The President's budget proposes a significant increase 
for the Commercial Crew Program--a 36 percent increase over the level 
provided in the fiscal year 2013 Omnibus. Can you explain why the 
budget proposal includes this increase? Will it allow for a meaningful 
competition to occur among private entities seeking to enter the space 
launch business?
    Answer. The President's fiscal year 2014 budget request would 
restore the Commercial Crew Program funding to the level requested in 
previous budgets to bring an American commercial system to operational 
use as quickly as possible (NASA is estimating by 2017, though the 
companies have indicated that they could do it sooner). Through the 
Commercial Crew Integrated Capability (CCiCap) effort, NASA is funding 
three companies in an attempt to promote meaningful competition in the 
development of their crew transportation systems, and reduce the 
eventual per-seat price of commercial crew transportation and rescue 
services.
                        space launch procurement
    Question. Both NASA and the Department of Defense (DOD) require 
affordable access to space, but the agencies have taken different 
approaches on how to achieve that goal. NASA has effectively used 
competition and fixed price contracts to drive down costs, while the 
DOD is primarily relying on buying in bulk, what they call a ``block-
buy'' strategy. From your experience, how has competition and fixed-
price contracting benefited the Agency in its space launch procurement, 
both in terms of cost savings and mission success?
    Answer. When appropriate, NASA has successfully utilized 
competition and fixed price contracting to drive down costs without 
compromising mission success. Specific examples include NASA Launch 
Service (NLS) and the Tracking and Data Relay Satellite System (TDRSS) 
contracts.
    NASA pursues a ``mixed fleet'' approach to assure its access to 
space by using a competitive strategy across a variety of commercial 
launch services to support the small, medium and intermediate range. 
Historically, NASA has benefited significantly from competition and 
fixed-price contracting in the intermediate class launch services. 
However, one must be flexible and adjust the strategy to fit market 
conditions. In the past, we have also benefitted from a large block buy 
in the medium class when no competition existed or was forecasted. More 
recently, NASA was able to achieve good pricing for its medium class 
missions by utilizing competition. With the recent success of emerging 
launch service providers, NASA can regain the benefit from competition 
in the intermediate class and maintain competition in the medium class. 
The small class has only witnessed minimal competitive scenarios so 
far; however the fixed-price contracting has helped keep costs in 
check. As to mission success, a technical evaluation of capabilities 
and past performance of the commercial providers is evaluated as part 
of any competition, along with cost and other variables in order to 
determine a ``best value'' selection to meet NASA's needs and the 
mission's risk posture. Since NASA's Launch Services Program creation 
in 1998, mission success in the medium and intermediate class launch 
services has thus far been 100 percent successful. Up until the two 
Taurus XL launch failures in 2009 and 2011, mission success in the 
small class had also been 100 percent successful. Launch is still a 
very challenging engineering endeavor, and no system will be able to 
maintain a 100 percent success record. Maintaining competition and 
using the NASA Launch Service Firm Fixed Priced contract structure and 
terms is critical to ensuring that NASA receives the best value for its 
launch services.
    In addition to these programs, NASA believes that maintaining 
competition for the Commercial Crew Program is critical to ensuring 
that NASA and the Nation receive the best value for future U.S.-based 
crew transportation to the International Space Station (ISS). 
Competition also incentivizes the companies to invest their own funds 
and share in the development costs of their Crew Transportation System. 
Having industry share in the cost of development and selling seats to 
other customers in addition to NASA will likely decrease NASA's costs 
for crew transportation services in both the short- and long-term. The 
competitive environment provides strong incentive for the companies to 
align with NASA's certification requirements in order to remain 
competitive in the future certification and services phases. Having 
multiple companies competing against each other will help ensure the 
safest and most cost effective system possible for the Government.
                            space technology
    Question. The budget proposes creating a new Space Technology 
Directorate, and funding it at $742 million in fiscal year 2014. Can 
you explain how the program and the new structure will improve our 
ability to protect astronauts on long-term deep-space missions? How 
will the work being done interact with the ongoing work within the 
Science Mission Directorate?
    Answer. The Space Technology Mission Directorate (STMD) was 
formally established in February 2013 to bring about innovative 
solutions that dramatically improve technological capabilities for NASA 
and the Nation. This new mission directorate has management and budget 
authority of the Space Technology programs, which are performed by all 
10 NASA Centers. It focuses on project execution and technology 
infusion into the Agency's exploration and science mission needs, 
taking a customer driven approach to prove capabilities needed for 
future NASA missions and the national aerospace community.
    Using a broad investment strategy, NASA's Space Technology 
investments address the identified range of technology areas found in 
NASA's Space Technology Roadmaps as prioritized by the National 
Research Council. The Space Technology portfolio supports a combination 
of early stage conceptual studies, discovering entirely new 
technologies; determining technology feasibility through rapid 
competitive development and ground-based testing; and flight 
demonstrations in relevant environments, completing the final step to 
mission infusion.
    To achieve our human spaceflight goals, there are many 
technological barriers that must be overcome to allow humans to travel 
further from Earth. HEOMD conducts architecture studies (e.g. Human 
Exploration Framework Team (HEFT), Human Spaceflight Architecture Team 
(HAT)), which identifies needed technologies, as well as their timeline 
to perform future deep space human exploration missions. Exploration 
Technology Development (ETD) within the Space Technology budget is 
targeted specifically at human exploration technology needs. This 
includes the development and demonstration of high power solar electric 
propulsion (SEP) capabilities, scalable to handle power and thrust 
levels needed for deep space human exploration missions. High power SEP 
is considered essential to affordably performing human exploration 
missions to distant destinations such as Mars. In addition, NASA is 
investing in technologies that will allow for the in-space storage and 
transfer of cryogenic fuels to meet the needs for future propulsion 
stages to move crew from low Earth orbit to a variety of destinations. 
Providing such long duration storage and transfer of propellants is 
considered essential for any human exploration missions beyond the 
earth-moon system. Finally, Space Technology within the ETD program 
area is maturing a suite of critical technologies identified by the 
HEFT. HAT and other human exploration studies. Technologies within the 
portfolio include: life support components for next generation space 
suits and habitats, in-situ resource utilization components to detect 
water and produce oxygen from carbon dioxide (considered essential to 
produce ascent vehicle propellants for a human Mars mission), advanced 
batteries to support long spacewalks, high efficiency fuel cells that 
require no consumables and can be recharged for reuse during long 
duration missions, radiation modeling methods to improve the lead time 
for solar events, autonomous systems that will permit astronauts to 
efficiently operate independent of ground controllers, and robotic 
systems that can work in close proximity to humans, off-loading 
maintenance and operational tasks from astronaut duty cycles.
    For science, this includes developing technologies that can 
increase communications bandwidth so NASA is able to receive more data 
from spacecraft studying the far corners of our solar system. In 
addition, we are developing technologies to improve accuracy of 
navigation systems and improve the longevity and efficiency of 
spacecraft power systems. Space technology is developing and will 
demonstrate a solar sail seven times larger than any solar sail tested 
in space to date, which has tremendous potential for future 
heliophysics missions. STMD also continues to support future planetary 
science missions through investments in advanced entry descent and 
landing (EDL) technologies, such as a new 33 meter ring sail parachute 
and supersonic inflatable aerodynamic decelerators to improve upon the 
landed mass and landing accuracy demonstrated by Curiosity. These new 
chutes and other supersonic decelerator technologies such as STMD 
investments in supersonic retro propulsion are necessary for human 
missions to the Mars surface. EDL technology investments also include 
inflatable and mechanical deployable heat shields applicable for 
robotic missions to multiple planets, as well as human missions to 
Mars. STMD is also investing in a new class of woven-carbon thermal 
protection materials permitting new missions to Venus as well as the 
other planets. The STMD is working with SMD to coordinate technology 
investments in nuclear systems and chronographs/starshades needed for 
next generation astrophysics observatories, with a goal of a space 
asset capable of detecting the atmospheric content and potential 
presence of life of Earth-like planets orbiting distant stars. In 
addition, STMD conducts annual small spacecraft demonstrations which 
tests subsystems that enable small spacecraft as well providing for an 
affordable test platform for future larger systems.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
  space act agreements/federal acquisition regulation (far) contracts
    Question. Please provide a detailed list of NASA authorities 
granted by the Space Act Agreements for the Commercial Crew Program. In 
particular, what unilateral authority to investigate participants, 
their activities and their books (specifically related to commercial 
crew activities) does the agreement grant NASA and what must NASA have 
permission from the contractor to access?
    Answer. Under the Commercial Crew Integrated Capability (CCiCap) 
Space Act Agreements (SAAs), NASA has the authority to request any data 
first produced by the partner under the agreement for the purpose of 
evaluating the partner's performance of its milestones. NASA has the 
authority to review the partner's records to determine if any 
inventions were made under the agreement and whether the partner has 
complied with the requirements of the agreement relative to reporting 
of inventions. The partner is also required to report any mishap, and 
NASA has the authority to request any reports and data resulting from 
the partner's mishap investigation.
    Question. Does NASA have the authority to investigate the 
Commercial Resupply Service flights, which to date, have had multiple 
incidents on ascent and at least once at landing, and if not, what is 
required for NASA to gain insight into these and any future mission 
irregularities?
    Answer. The Commercial Resupply Services (CRS) contractor has the 
lead for anomaly resolution for phases of the mission during which they 
have responsibility (as was the case for the recent Dragon thruster 
anomaly which was successfully resolved). However, under the terms of 
the CRS contract, NASA officials are kept well apprised of the nature 
and progress of these activities, and NASA technical personnel may 
participate in the contractor's investigation and resolution of 
anomalies. SpaceX provided all relevant data necessary, including 
anomaly resolution information, to perform the rendezvous and berthing 
of the Dragon to the International Space Station (ISS).
    Question. Can NASA provide the timing for conversion to FAR-based 
contracts for the certification of commercial capabilities and 
procurement of crew transportation services? Does NASA intend to sign 
further Space Act Agreements, or modifications to current agreements 
that are currently signed, for commercial crew prior to implementing 
FAR-based contracts?
    Answer. NASA's contracting effort for the certification of 
commercial crew transportation services began with the first contract 
phase, the Certification Products Contracts (CPC). CPC was awarded to 
three companies on December 19, 2012. Under these FAR-based contracts, 
the selected contractors are developing products that will lead to the 
certification of their integrated commercial crew transportation 
systems. Advances made by these American companies during CPC are 
advancing the process of ensuring integrated crew transportation 
systems that will meet Agency safety requirements and standards to 
launch American astronauts to the International Space Station from the 
United States, ending the Agency's reliance on Russia for these 
transportation services.
    The CPC contractors are:
  --The Boeing Company, Houston, Texas;
  --Sierra Nevada Corporation Space System, Louisville, Colorado; and
  --Space Exploration Technologies Corp., Hawthorne, California.
    The procurement planning for the second phase of the FAR-based 
certification contracts, known as the Commercial Crew Transportation 
Capability (CCtCap) procurement, has begun and will result in a 
separate competition. CCtCap award(s) are planned for the summer of 
2014.
    NASA does not currently intend to conduct additional competitions 
for Space Act Agreements to support commercial crew development. As 
companies mature their designs, NASA will determine whether exercising 
optional milestones is in the best interest of the Government.
                              cots program
    Question. During the Commercial Orbital Transportation Services 
(COTS) program, the Space Act Agreements frontloaded the funding 
milestones so that nearly 90 percent of the funds were provided to 
companies before a single launch occurred in order to ensure the 
capability was developed and available when needed.
    Given that significant Federal investment has already been made in 
a commercial capability which is a ``launching point'' for much of the 
commercial crew capability, has NASA considered backloaded payments for 
commercial crew in an effort to push for a greater private investment 
in the capability and greater accountability with respect to achieving 
milestones, imbedding safety tests and meeting schedule requirements?
    Answer. NASA performs a full and comprehensive analysis of the 
milestones, deliverables, and payment options for all procurements and/
or agreements. All types of payment options are considered and the 
specific type is chosen to best meet the objectives of the activity.
    With respect to the COTS and Commercial Crew funded Space Act 
Agreements, the milestones and the amount of the milestones were 
proposed by industry and NASA reviewed them for appropriateness and the 
extent to which they met the objectives of the Announcement for 
Proposals.
                              competition
    Question. The Commercial Crew Program has been characterized as a 
competition. However, NASA has provided $1.5 billion in incentivized 
grants to three companies for the development of crew launch vehicles. 
This does not sound like a traditional competition where multiple 
companies compete and one wins. This sounds like a grant program that 
makes everyone a winner--except perhaps the taxpayer who is paying 
multiple times for the same product.
    Could you explain why NASA is calling the Commercial Crew Program a 
competition and how this approach will save taxpayer dollars if NASA is 
paying to develop multiple launch vehicles?
    Answer. NASA characterizes the Commercial Crew Program as 
competitive because industry competes for awards under the program. 
Multiple companies competed for funded Commercial Crew Development 
(CCDev) and Commercial Crew Integrated Capability (CCiCap) awards and 
did not receive them, so the characterization of everyone being a 
winner is incorrect. NASA has leveraged the benefits of competition 
among companies for awards through the conduct of multiple competitions 
thereby requiring the companies to provide best value during each phase 
of the activity.
    Maintaining a competitive environment for the Commercial Crew 
Program is critical to ensuring that NASA and the nation receive the 
best value for future U.S.-based crew transportation to ISS. In 
addition, continued competition among providers incentivizes the 
companies to expand their commercial market base by selling services to 
any other customers to maintain reasonable prices. Continued 
competition among providers also incentivizes the companies to invest 
their own funds and share in the development costs of their systems. 
Competition is also the fundamental basis for establishing fair and 
reasonable pricing for all requirements. Having industry share in the 
cost of development and selling seats to other customers in addition to 
NASA will likely decrease NASA's costs for crew transportation services 
in both the short- and long-term.
    The establishment of this competitive environment provides strong 
incentive for the companies to align with NASA's certification 
requirements in order to remain competitive in the future certification 
and services phases. Having multiple companies competing against each 
other will help ensure the safest and most cost effective system 
possible for the Government.
    NASA is not paying multiple times for the same product. Each 
commercial crew industry participant is proposing a unique crew 
transportation system (even when using the same launch vehicle) and 
NASA's investments are helping to develop those unique systems. The 
benefits of this approach can be seen in the Commercial Cargo Program 
which should soon have demonstrated two different U.S. cargo systems 
for ISS logistics. NASA refers to this as ``dissimilar redundancy'' and 
it allows NASA to be able to absorb a failure of any one system without 
a major impact to on-orbit operations. Additionally, the technology 
development that has been achieved by all the commercial crew companies 
will benefit other space based activities and expand the U.S. space 
industrial base.
    Question. Please elaborate how the timing of NASA investment in 
commercial crew, and the spreading of that investment across multiple 
companies results in efficient use of Federal funding and optimizes 
private investment. Also provide any studies either done independently 
or by NASA that support the implementation of commercial crew.
    Answer. The President's fiscal year 2014 budget request will enable 
the re-establishment of U.S. human access to space by 2017. Through the 
Commercial Crew Program, NASA is funding multiple industry concepts in 
an attempt to promote meaningful competition among providers in the 
development of their crew transportation systems, and reduce the 
eventual per-seat price of commercial crew transportation and rescue 
services. Please see response to question above.
    The most prominent study supporting the implementation of 
commercial crew is the ``Final Report of the Review of U.S. Human 
Spaceflight Plans Committee'' published in 2009 and available online at 
http://www.nasa.gov/pdf/396093main_HSF_Cmte_FinalReport.pdf.
    Question. If none of the current contractors for commercial crew 
vehicle development are able to meet NASA's requirements for safely 
delivering crew to the international space station, will NASA choose to 
continue the program, as they did with COTS, at whatever the cost or 
delays in schedule may be?
    Answer. It is NASA's intention to use U.S. commercial industry to 
provide crew transportation and rescue services to the International 
Space Station (ISS). The Agency has made its crew safety requirements 
available, and is confident that one or more potential vendors will be 
able to develop safe crew transportation services by 2017, contingent 
upon the availability of appropriated funds and technical progress.
    Question. Have any of the commercial crew participants shown to 
NASA that their business will go forward, regardless of receiving NASA 
funding or guaranteed flights to the international space station?
    Answer. NASA has not requested a guarantee from our industry 
partners for their businesses to go forward without NASA funding. 
However, each company has a unique view of the market for human space 
transportation and unique business cases for completing the development 
of their systems.
    As part of the Commercial Crew Program Industry Touchpoint held in 
April 2013 in Colorado Springs, NASA did request industry input 
regarding post-certification missions to the ISS. This information is 
being used by the NASA in the preparation of the Request for Proposals 
for the Phase 2 Certification contract.
             commercial crew versus international partners
    Question. Will NASA continue payments to the Russians as a back-up 
to commercial crew services and for how many months, or years after 
commercial crew services become regularly available?
    Answer. NASA recently signed a modification to its contract with 
the Russian Federal Space Agency (Roscosmos) for full crew 
transportation services to the ISS in 2016 with return and rescue 
services extending through June 2017. NASA is facilitating development 
of a U.S. commercial crew space transportation capability with the goal 
of achieving safe, reliable and cost-effective access to and from the 
space station and low Earth orbit beginning in 2017. NASA is committed 
to launching U.S. astronauts aboard domestic spacecraft as soon as 
possible.
    Question. NASA's Commercial Crew Program projects that a vehicle 
will be ready to launch in 2017. However, given the schedule delays in 
the Commercial Cargo Program, it is likely that the Crew Program will 
experience delays as well. If that is the case, I question the value of 
moving forward with an extremely costly Commercial Crew Program when 
the Space Station is currently slated for decommissioning in 2020.
    Has NASA done a cost-benefit analysis comparing the cost of 
developing a commercial crew capability with the cost of using our 
international partners to provide those same flights given that there 
will likely be a limited number of flights to the Space Station?
    Answer. NASA has not performed a cost-benefit analysis comparing 
the cost of developing a commercial crew capability with the cost of 
using foreign systems. NASA's commercial crew partners have not 
formally established final pricing for ISS services missions. In 
keeping with the 2010 NASA Authorization Act, NASA believes U.S. human 
access to space is a critical capability for the nation and that 
commercial crew capabilities are a key means to achieve this goal. The 
lifetime extension data that NASA and the ISS partnership have reviewed 
to date indicates that the ISS could operate until at least 2028.
    Question. Is this the best way for NASA to spend scarce taxpayer 
dollars when the capability already exists and there are so many other 
endeavors in which to invest?
    Answer. Yes. The capability does not already exist within the 
United States and NASA is committed to launching U.S. astronauts aboard 
domestic spacecraft as soon as possible. Like the COTS program, the 
Commercial Crew Program appears to date to be a cost-effective means of 
developing U.S. space capabilities. Full funding of the 
Administration's fiscal year 2014 budget request is critical to making 
these domestic capabilities possible by 2017. The commercial crew 
industry partners have indicated that they believe they could be ready 
prior to that date. But, NASA has included some schedule margin because 
human spaceflight development efforts have historically been 
challenging. Thus, NASA believes 2017 is a reasonable estimate for the 
availability of U.S. commercial crew services, pending adequate funding 
and technical progress.
    Question. At what point in the development of U.S.-based crew 
vehicles will NASA stop negotiating future flights with the Russians 
and is there a planned overlap in case the commercial vehicles are not 
ready in time?
    Answer. NASA will monitor the development of commercial crew 
vehicles closely. It is important to note that the Russians require 
approximately 3 years of lead time to manufacture a new Soyuz 
spacecraft, so the Agency has to enter negotiations with that timeframe 
in mind.
                       commercial cargo/resupply
    Question. What are NASA's plans with regard to future commercial 
cargo deliveries to the ISS, after 2015? Will the current contracts be 
extended or will there be a new competition?
    Answer. NASA can continue to award some additional flights under 
the current CRS contracts. Beyond that, future competitions for cargo 
servicing will be awarded using competitive FAR-based contracts. See 
the answer to question #13.
    Question. For the Commercial Resupply Services Program, will both 
of the cargo providers meet their obligations to supply the ISS by the 
dates originally agreed to by NASA? If not, why not, and will NASA have 
to renegotiate existing contracts in order to accomplish the programs 
purpose?
    Answer. The CRS contract is a firm-fixed price, Indefinite Delivery 
Indefinite Quantity procurement with a period of performance from 
January 1, 2009, through December 30, 2016. The CRS contractors are not 
anticipated to complete on their original contract schedule, due in 
large part to the technical challenges of bringing new spacecraft and 
launch vehicles to operational status. However, NASA may elect to 
modify the current contracts to enable the completion of the flights. 
It is important to recall that the Agency only pays the contractors for 
milestones achieved.
                                asteroid
    Question. The asteroid retrieval strategy outlined in the budget 
request proposes to augment existing activities in order to facilitate 
a potential mission in the future. Provide the changes in budget 
profile and timing if this augmentation is not provided.
    Answer. NASA is pursuing ways to align key activities in Science, 
Space Technology, and Human Exploration and Operations Mission 
Directorates to improve detection and characterization of near-Earth 
asteroids (NEAs); including asteroids that could be potentially 
hazardous to the Earth; demonstrate advanced solar electric propulsion; 
and capture and redirect a small NEA to a stable orbit in the lunar 
vicinity. We would then use the Orion and Space Launch System assets to 
launch astronauts to the asteroid, perform rendezvous operations and 
return samples from it.
    Changes in the budget have been requested for fiscal year 2014 to 
accelerate the development of key technologies and capabilities for 
NASA, as well as enable the asteroid redirect mission. These 
capabilities are important in their own right independent of the 
proposed asteroid strategy. For example, the Space Technology Mission 
Directorate (STMD) had planned to perform a high-powered Solar Electric 
Propulsion demonstration to support the needs of future human 
exploration as well as the commercial satellite sector. The fiscal year 
2014 budget request will allow NASA to accelerate the development and 
demonstration of these capabilities and define a mission concept to 
leverage existing efforts. The asteroid mission strategy, including the 
crewed segment using the Space Launch System (SLS) and Orion, would 
provide a compelling near term mission and destination for exploration 
system capabilities. The asteroid mission fits well with the current 
development timelines for SLS and Orion and it would not require 
substantial added deep space architecture components implying an 
affordable near term destination. If the augmentation is not provided, 
a significant delay will occur in the advancement and demonstration of 
these critical technologies and capabilities. Further development of 
this compelling mission concept will be impaired or halted, depending 
on the magnitude of the cut to the request. In addition, momentum 
gained in human spaceflight for enhancing the objectives of initial 
missions of Orion and SLS toward this integrated opportunity will be at 
risk.
    Question. Please explain the timing and chain of events that 
changed NASA's planning from sending astronauts to visit an asteroid to 
the currently proposed capture of an asteroid and bringing it back for 
examination?
    Answer. As NASA planners worked different scenarios for the 
Agency's next human missions of exploration beyond low Earth orbit, 
they found that the potential mission to capture and redirect an 
asteroid into a stable lunar orbit for in situ study by astronauts had 
a number of advantages. First, it is a comparatively near-term goal 
(NASA is considering flying such a mission by the 2025 timeframe), 
which would enable the Agency to test out its initial deep-space 
architecture elements--the Space Launch System (SLS) and Orion Multi-
Purpose Crew Vehicle (MPCV)--without the need for the immediate 
development of other components needed for other destinations. Second, 
this proposal draws on work already underway in the Agency, including 
asteroid detection and tracking efforts, advanced solar-electric 
propulsion (SEP) development, and the development and initial flights 
of the SLS and Orion vehicles.
    NASA has also spent significant time examining the potential for 
sending astronauts directly to a near earth asteroid. Such a mission 
includes several additional challenges. First, identifying a target NEA 
that is worthy of a visit in terms of science and exploration value, 
while keeping trip times and propellant requirements reasonable is 
challenging. Most identified NEA targets of significant value will 
require greater than 6-month round trip times. Such a mission will also 
require the development of additional exploration assets/capabilities 
such as a deep space habitat, space exploration vehicle (something with 
an airlock, manipulator arms as well as power and propulsion), long 
duration cryogenic storage, more reliable life support systems and a 
strategy for radiation protection. These capability requirements imply 
that the cost and schedule for a direct asteroid exploration mission is 
more challenging than the asteroid redirect mission. The Asteroid 
Redirect Mission would affordably support and leverage multiple efforts 
across the Agency as it paves the way for journeys to other 
destinations by helping NASA prove out its new heavy-lift launch 
vehicle and exploration spacecraft in a near-term mission.
    Question. What is the technology readiness level of the propulsion 
and capture mechanisms intended to be used for a future asteroid 
retrieval mission and does NASA anticipate some technology 
demonstrations prior to the mission to reduce risk?
    Answer. The Asteroid Redirect Mission will serve as a technology 
demonstration mission to validate the utility of high-powered solar 
electric propulsion and robotic capture mechanisms. Since this is a 
technology demonstration effort, the goal of this mission will be to 
mature these technologies for infusion into future NASA science and 
exploration missions.
    The technology development to support a high-powered solar electric 
propulsion demonstration has been underway for the last 2 years through 
Space Technology's Game Changing Development Program. The main 
technology components under development include:
  --Solar Array Systems: These deployable high-power arrays feature 
        twice the power for the same mass and three times the packaging 
        efficiency relative to current array technologies. STMD 
        selected two solar array system contractors (ATK and Deployable 
        Space Systems) to develop advanced deployable arrays systems 
        that can support the 30 kW to 50 kW required for the Asteroid 
        Redirect Mission and that can scale to over 300 kW for future 
        human exploration missions. This technology will reach TRL 5 by 
        the middle of fiscal year 2014. Space Technology will then be 
        prepared to down-select one of the two vendors for inclusion 
        into the SEP system for the flight demonstration.
  --Electric Propulsion Thrusters: These magnetically shielded, high 
        thrust Hall thrusters feature higher thrust levels (10 to 15 kW 
        vs. 5 kW), higher specific impulse (3000 sec vs. 2000 sec) and 
        magnetic shielding to significantly increase long duration 
        operations. These thrusters will reach TRL 5 by mid fiscal year 
        2014, with the potential for the procurement of engineering 
        development units to support the asteroid redirect mission 
        before the end of fiscal year 2014. Alternate electric 
        propulsion thruster solutions (besides magnetically shield Hall 
        thrusters) are possible for the Asteroid Redirect Mission but 
        will need to prove competitive in terms of mass, efficiency, 
        specific impulse and technical maturity.
  --Power processing units (PPUs) and power management and distribution 
        (PMAD) systems: Multiple options for PPUs and the PMAD approach 
        have been under development that can support the Asteroid 
        Redirect Mission. These technologies will reach TRL 6 by the 
        end of fiscal year 2014.
    Currently, with all technology components expected to complete 
development and testing during fiscal year 2014, the Solar Electric 
Propulsion (SEP) system will be ready for the procurement of hardware 
supporting the flight demonstration by fiscal year 2015. Currently, 
STMD is considering whether any precursor demonstration, to test the 
highest risk items, is warranted prior to the asteroid mission. In 
addition to the current baseline Hall-thruster SEP concept, STMD will 
study and consider other high-powered SEP concepts such as gridded ion 
and magneto-plasma systems to power the robotic spacecraft.

                          SUBCOMMITTEE RECESS

    Chairwoman Mikulski. This subcommittee stands in recess 
until Thursday, May 9, when we're going to take the testimony 
of the FBI Director, Mr. Mueller.
    [Whereupon, at 10:15 a.m., Thursday, April 25, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


</pre></body></html>
